<html>
<title> - LEGISLATIVE HEARING ON H.R. 1383, H.R. 802, H.R. 1657, AND H.R. 1671</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
  LEGISLATIVE HEARING ON H.R. 1383, H.R. 802, H.R. 1657, AND H.R. 1671

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2011

                               __________

                           Serial No. 112-11

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
67-186                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bddacdd2fddec8cec9d5d8d1cd93ded2d093">[email&#160;protected]</a>  


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
JEFF DENHAM, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              May 3, 2011

                                                                   Page
Legislative Hearing on H.R. 1383, H.R. 802, H.R. 1657, and H.R. 
  1671...........................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    25
Hon. Bruce L. Braley, Ranking Republican Member..................     2
    Prepared statement of Congressman Braley.....................    25
Hon. Bill Johnson, prepared statement of.........................    26

                               WITNESSES

U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Education Service, Veterans Benefits Administration............    16
    Prepared statement of Mr. Wilson.............................    33

                                 ______

American Legion, Robert Madden, Assistant Director, National 
  Economic Commission............................................     8
    Prepared statement of Mr. Madden.............................    30
American Veterans (AMVETS), Christina M. Roof, National Acting 
  Legislative Director...........................................     3
    Prepared Statement of Ms. Roof...............................    26
    Connolly, Andrew, Dubuque, IA................................     9
    Prepared statement of Mr. Connolly...........................    32
Iraq and Afghanistan Veterans of America, Tom Tarantino, Senior 
  Legislative Associate..........................................     4
    Prepared statement of Mr. Tarantino..........................    28
Veterans of Foreign Wars of the United States, Shane Barker, 
  Senior Legislative Associate, National Legislative Service.....     6
    Prepared statement of Mr. Barker.............................    29

                       SUBMISSIONS FOR THE RECORD

Gold Star Wives of America, Inc., Vivianne Cisneros Wersel, 
  Au.D., Chair, Government Relations Committee, statement........    36
Military Officers Association of America, Vice Admiral Norbert R. 
  Ryan, Jr., USN (Ret.), President, letter.......................    37
National Association of Veterans Programs Administrators, Faith 
  DesLauriers, Legislative Director, and Dorothy Gillman, 
  President, letter..............................................    38
Paralyzed Veterans of America, statement.........................    39


  LEGISLATIVE HEARING ON H.R. 1383, H.R. 802, H.R. 1657, AND H.R. 1671

                              ----------                              


                          TUESDAY, MAY 3, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:02 p.m., in 
Room 340, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Johnson, Braley, and 
Walz.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good afternoon, and I call the Subcommittee 
on Economic Opportunity of the Committee on Veterans' Affairs, 
to order.
    Today, we will be taking testimony on H.R. 1383, the 
``Restoring GI Bill Fairness Act of 2011,'' sponsored by 
Chairman Miller and myself; also, H.R. 802, sponsored by 
Ranking Member Filner; H.R. 1671, sponsored by Ranking Member 
Braley; and H.R. 1657, a bill to improve the U.S. Department of 
Veterans Affairs' (VA's) enforcement of service-disabled, 
veteran-owned small businesses and their contracting, which I 
introduced. And our intent is to hold a Subcommittee markup 
this Thursday followed by a full Committee markup on May 11th.
    H.R. 1383, the ``Restoring GI Bill Fairness Act of 2011,'' 
is a bill that would grandfather veterans attending private 
schools who are adversely affected by the changes to the GI 
bill that passed at the end of last Congress. I am glad that we 
were able to make this fix to help vets in the seven States 
that would see their tuition and fee payments reduced, all 
without increasing the deficit due to the inclusion of an 
offset. I see by their testimony that the VA has some 
objections to the bill, and I hope we can work through those 
concerns.
    H.R. 1657 is a bill that I introduced that is designed to 
debar companies who are fraudulently claimed to be service-
disabled, veteran-owned small businesses (SDVOBs) from doing 
business with VA. For too long, legitimate SDVOBs have lost 
contracts to these fraudulent companies, and I hope that the 
prospect of debarment for 5 years will be the deterrent we need 
to stop this despicable practice.
    I would ask all of today's witnesses to summarize your 
written statement within 5 minutes, and without objection each 
written testimony will be made part of the hearing record.
    Before we begin with testimony, I now ask unanimous consent 
to have statements from the Gold Star Wives, and the Paralyzed 
Veterans of America entered into the record. Hearing none, so 
ordered.
    [The prepared statement of Chairman Stutzman, and the 
statements for the record, appears on p. 25.]
    Mr. Stutzman. I now yield to the distinguished Ranking 
Member from the great corn State of Iowa for any remarks he may 
have.

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. I want to thank you for holding this hearing 
because I think the subjects we are dealing with today are why 
the work of this Subcommittee is so important. Today's 
legislative hearing includes four bills before us that address 
some of the urgent needs of our veterans' population, including 
education benefits, extending temporary adaptation grants for 
disabled veterans, recognizing small businesses for their 
contributions to employing veterans, and penalizing fraudulent 
veteran-owned small businesses.
    Included in the hearing today is H.R. 1671, the ``Andrew 
Connolly Veterans Housing Act,'' that I introduced yesterday. 
This bill seeks to extend the temporary residence adaptation 
grant, also known as the TRA, through December of 2016. The TRA 
permits the Secretary of Veterans Affairs to award a grant to a 
service-disabled veteran who is temporarily residing in a 
residence owned by a member of the veteran's family and makes 
adaptations necessary to meet the veteran's mobility needs. And 
I have worked with a number of veterans in my district who take 
advantage from these programs.
    Currently, the legislation is set to terminate on December 
31, 2011, which is why I am extending this to December 31, 
2016. This grant is important to service-connected veterans who 
return home with devastating injuries. These veterans need a 
caretaker while they rehabilitate, and these caretakers are 
generally family members. In order to provide disabled veterans 
with the independence they need while they recuperate, 
different types of adaptations need to be made to a family's 
home while the veteran lives temporarily with them.
    Finally, I want to recognize one of my constituents, Andrew 
Connolly, a disabled veteran who served in Iraq and Egypt, who 
has received a specially adaptive housing grant and is here to 
talk about how this grant has affected his life.
    One of the things that I can tell you about, knowing Andrew 
and his wife, Jenny, and his son Brody, who is here, is that 
they have a deep appreciation for how these programs provide 
opportunities for a new future for families like theirs who are 
affected by an unplanned disability.
    I want to thank them for traveling from Iowa to be with us 
today and for Andrew's continued service by fighting for 
veterans' issues. One of the highlights of my career was going 
to the open house that Andrew, Jenny and Brody held with the 
new home they were able to build from this grant. They gave 
away black sweatshirts to everyone there, Mr. Chairman, and it 
had a little house logo, and on that logo it said this house 
was built on hope and love. I cannot think of any better symbol 
of what these grants are supposed to do, and that is why I am 
so proud to have them here today.
    And, with that, I yield back.
    [The prepared statement of Congressman Braley appears on p. 
25.]
    Mr. Stutzman. Thank you, Mr. Braley.
    I now ask the first panel to come forward.
    With us today is Ms. Christina Roof, representing AMVETS; 
Mr. Robert Madden from The American Legion; Mr. Tom Tarantino 
from the Iraq and Afghanistan Veterans of America (IAVA); and 
Mr. Shane Barker from the Veterans of Foreign Wars of the 
United States (VFW).
    And, of course, Mr. Andrew Connolly, who we met; and it is 
great to meet you, sir. Thank you for your service. It is good 
to meet your family as well. Thank you for having them all 
here. I am looking forward to your testimony.
    So let us start with Ms. Roof. You have 5 minutes for 
testimony.

 STATEMENTS OF CHRISTINA M. ROOF, NATIONAL ACTING LEGISLATIVE 
  DIRECTOR, AMERICAN VETERANS (AMVETS); TOM TARANTINO, SENIOR 
    LEGISLATIVE ASSOCIATE, IRAQ AND AFGHANISTAN VETERANS OF 
 AMERICA; SHANE BARKER, SENIOR LEGISLATIVE ASSOCIATE, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
 STATES; ROBERT MADDEN, ASSISTANT DIRECTOR, NATIONAL ECONOMIC 
COMMISSION, THE AMERICAN LEGION; AND ANDREW CONNOLLY, DUBUQUE, 
                               IA

                 STATEMENT OF CHRISTINA M. ROOF

    Ms. Roof. Thank you.
    Chairman Stutzman, Ranking Member Braley, and distinguished 
Members of the Subcommittee, on behalf of AMVETS, I would like 
to extend our gratitude for being given the opportunity to 
share with you our views and recommendations on these very 
important pieces of legislation. The Committee has my full 
statement for the record, so in the interest of time today, I 
will just address a few of the bills.
    AMVETS supports H.R. 1657, to amend title 38 to revise the 
enforcement of penalties for misrepresentation of a business 
concern as a VOSB or as an SDVOSB. AMVETS applauds Congressman 
Stutzman for introducing this piece of legislation, which 
AMVETS believes is very long overdue and very much needed. 
AMVETS believes H.R. 1657 will not only strengthen, but also 
help enforce penalties that have long been in place, yet 
severely underutilized by numerous Federal agencies.
    AMVETS urges a swift passage of H.R. 1657 and further calls 
upon the Subcommittee to focus a substantial amount of their 
time during the 112th Congress to finally close all of the 
loopholes within the Federal procurement system and to pass 
laws that will once and for all rid the Federal procurement 
system of fraudulent businesses unlawfully taking contracts and 
jobs from veterans.
    AMVETS also lends our strong support to H.R. 1671, to 
extend the authority of the Secretary of Veterans Affairs to 
provide specially adaptive housing to veterans residing in 
temporary housing. Thousands of disabled veterans depend on 
these funds to sustain their quality of life and independence.
    Furthermore, given the rate at which our Nation's war 
fighters are returning from our current conflicts with 
debilitating and life-changing injuries, AMVETS urges the swift 
passage of this life-sustaining bill and urges Congress not 
only to extend this to 2016, but to look to further extending 
this to meet the needs of our current serving men and women 
who, as we sit here today, are engaged in combat abroad.
    Finally, AMVETS supports H.R. 1383, to temporarily preserve 
higher rates of tuition and fees. AMVETS believes this will 
allow for students currently enrolled in nonpublic institutions 
of higher learning the opportunity to finish their degree 
without any undue financial burden or stresses.
    And while AMVETS applauds Chairman Miller for introducing 
this piece of legislation, I feel I will be doing a great 
disservice to the AMVETS membership if I do not voice their 
concerns regarding the new system of which veterans will 
receive their monthly living allowances under the new Post-9/11 
GI Bill. AMVETS believes many veterans already utilizing their 
educational benefits and entitlements under the Post-9/11 GI 
Bill will be caught off guard and experience undue financial 
hardship during the time periods between college semesters.
    AMVETS urges Congress to revisit this issue, and we even 
more strongly urge VA to immediately start performing stronger 
outreach and education on all of the changes made to the Post-
9/11 GI Bill to those students already enrolled in institutions 
of higher learning.
    Chairman Stutzman and distinguished Members of the 
Subcommittee, AMVETS again would like to thank you for inviting 
us to share with you our opinions and recommendations today.
    This concludes my testimony, and I stand ready to answer 
any questions you may have for me.
    [The prepared statement of Ms. Roof appears on p. 26.]
    Mr. Stutzman. Thank you, Ms. Roof.
    Mr. Tarantino, you are now recognized for 5 minutes.

                   STATEMENT OF TOM TARANTINO

    Mr. Tarantino. Mr. Chairman, Ranking Member, and Members of 
the Committee, on behalf of Iraq and Afghanistan Veterans of 
America's 200,000 members and civilian supporters, I want to 
thank you for inviting me to testify at this hearing to share 
our members' views on these really important issues.
    My name is Tom Tarantino, and I am the Senior Legislative 
Associate with IAVA. I proudly served 10 years in the Army, 
beginning my career as an enlisted Reservist and leaving 
service as an active-duty calvary officer. Throughout those 10 
years, my single most important duty was to take care of 
soldiers. In the military, they teach us to have each other's 
backs. Although my uniform is now a suit and tie, I am proud to 
work with Congress to ensure that the entire country has the 
backs of America's servicemembers and veterans.
    IAVA conceptually supports the establishment of a program 
to recognize businesses that contribute to veterans' 
employment. While we endorse H.R. 802, IAVA does have concerns 
about what the specific program will look like, how it plans to 
recognize businesses, and what effect it will have on lowering 
the rising veteran unemployment rate. While the VetStar program 
certainly couldn't hurt, we remain skeptical that this is the 
most effective course of action for Congress to take at this 
stage.
    In 2010, the unemployment rate for new veterans was a 
staggering 11\1/2\ percent. Even as the civilian unemployment 
rate begins to decline, we continue to see new veteran 
unemployment rise from month-to-month in 2011. With less than 
half a percent of Americans fighting in this current war and 
only 8 percent of Americans having ever served in the military, 
it is critical that we bridge this widening gap between the 
civilian workforce and our Nation's veterans. IAVA believes 
that more proactive measures need to be taken if we are to turn 
the tide of veteran unemployment.
    Several weeks ago, we brought 28 Iraq and Afghanistan 
veterans from around the country to D.C. for our Storm the Hill 
campaign. Our goal was to reduce the veteran unemployment rate 
by Veterans Day in 2011. We met with 117 offices and 57 Members 
of Congress. We identified five priorities for Congress to 
actually tackle to reduce the veteran unemployment rate.
    We want to order a study and report on the differences 
between military certifications, jobs, and education with their 
civilian counterparts.
    We want to make Transition Assistance Program mandatory and 
call for a review of the program every 3 years.
    We want to make the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) violations enforceable and 
expand them to in-State National Guard deployments.
    We want to encourage entrepreneurship by expanding 
successful programs like the Patriot Express Loan Program and 
the Veteran Entrepreneur Boot Camp.
    And we want to encourage businesses to hire veterans by 
simplifying and enacting robust tax relief.
    I am proud to report that these ideas came with almost 
universal support. And many Members of the House, especially 
those sitting on this Committee, have stepped up and are 
currently working on legislation that will reduce the number of 
veterans coming home from war to an unemployment check. And I 
look forward to testifying at future legislative hearings on 
those bills and reporting to our 90,000 Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) veterans that 
Congress once again has their back.
    IAVA proudly supports H.R. 1383. This bill will ensure that 
a small minority of veterans who, due to poorly constructed and 
confusing tuition and fee regulations, would have had their 
benefits reduced as a result of the Post-9/11 GI bill's 
expansion to more than 400,000 veterans. It will ensure that 
they will be able to finish their college education.
    The House of Representatives widely included this provision 
in their version of the Post-9/11 Veterans Educational 
Improvement Act of 2010. However, it was excluded from the 
version that was signed by the President. IAVA fought hard to 
ensure that student veterans would not be negatively impacted 
by the improvement and the expansion of the GI Bill; and on 
behalf of our members and those student veterans, I want to 
thank this Committee for taking this on.
    IAVA supports H.R. 1657, strengthening the penalties that 
small businesses may incur if they misrepresent themselves as a 
veteran-owned or service-disabled veteran-owned small business 
seeking government contracts.
    Promoting veteran entrepreneurship is key to fighting the 
growing tide of veteran unemployment, and small businesses that 
falsely claim to be veteran owned when applying for government 
contracts harm veterans who provide essential services to the 
government. This bill will provide clarity on those penalties.
    And IAVA proudly supports H.R. 1671, that would extend the 
authority of the Secretary of Veterans Affairs to provide 
adaptive housing benefits to veterans who are recovering from 
injuries at the home of a caregiver through 2016.
    For thousands of veterans returning home from Iraq and 
Afghanistan with severe injuries, the recovery process is often 
long and arduous. Many of them require constant care from a 
caregiver years after they leave service, and during this time, 
they frequently reside in a home that is not their own or a 
permanent residence that they may live on after they recover. 
So adaptations like ramps and elevators and all the things that 
you need to increase your mobility may need to be done twice. 
So by extending this to 2016, Congress shows their strong 
support for these veterans for their sacrifice and the extreme 
sacrifices they have made for our freedom.
    I would like to thank this Committee for continuing to 
support Iraq and Afghanistan veterans and their families. By 
ensuring that these bills are swiftly made into law, we will 
continue to send a signal to veterans of all generations that 
Congress and the veterans' community has their backs.
    Thank you for your time and attention. I would be happy to 
answer any questions.
    [The prepared statement of Mr. Tarantino appears on p. 28.]
    Mr. Stutzman. Thank you. We have just been called to votes. 
Mr. Barker, we will take your testimony, and then we will run 
over and vote, and then we will be back to continue. So, Mr. 
Barker, 5 minutes.

                   STATEMENT OF SHANE BARKER

    Mr. Barker. Thank you very much on behalf of the Veterans 
of Foreign Wars. We appreciate the opportunity to present our 
views on these bills to you today.
    We support H.R. 802, legislation to establish an award 
program known as VetStar. This would recognize businesses for 
their efforts to employ veterans.
    We have concerns about this legislation, however. For it to 
be successful, funding may be needed to conduct the private-
sector outreach to promote employment in the population of 
veterans.
    We also believe that the Department of Labor's Veterans' 
Employment and Training Service may be better suited to provide 
access to the private and public sector employment data and 
assistance to verify and acknowledge companies that take this 
initiative in employment and in promotion of veterans. Those 
who employ our veterans should not go unnoticed, and we look 
forward to working with the Committee on this legislation in 
the future.
    We greatly appreciate the Chairman's initiative in 
introducing H.R. 1383, the ``Restoring GI Bill Fairness Act of 
2011.'' It addresses what is perhaps the most harmful 
deficiency with the current Post-9/11 GI Bill; that is, the 
lack of provisions to ensure that students are not saddled with 
debt or out-of-pocket expenses as a result of changes in 
tuition payment rates set to take effect this August.
    Over the past 2 years, many students have chosen a 
particular degree program with the expectation that the Yellow 
Ribbon program they began with would still be there when they 
completed their degree. Changes made to the Post-9/11 GI Bill 
last year, positive as they were, significantly altered the 
Yellow Ribbon program without protecting current degree-seeking 
students from the impact. Many could find themselves making the 
choice between transferring schools or paying hefty tuition 
bills if they choose to remain. H.R. 1383 would preclude 
changes made to the Yellow Ribbon program from negatively 
affecting students who are already working on their degrees. It 
is very good legislation, and the VFW strongly supports it.
    We also support H.R. 1657. Veterans preference in hiring 
and contracting has been a great benefit to many veterans and 
should be protected from abuse. Provisions in this legislation 
would create harsher penalties for those who abuse the system 
and enhance protections for service-disabled and veteran-owned 
businesses involving contracting. It also heightens oversight 
of the process, a critical piece.
    Finally, the VFW supports H.R. 1671, which would extend the 
authority of VA to provide specially adaptive housing 
assistance to individuals residing temporarily in housing owned 
by a family member. Through the VA's adaptive housing program, 
hundreds of our most severely injured veterans have been given 
an opportunity to transition back into civilian life while 
gaining some sense of independence as they recuperate under the 
care of a family member.
    With the ongoing wars in Afghanistan and Iraq, we must 
continue providing adaptive housing assistance for our severely 
injured veterans. This essential benefit unquestionably makes a 
difference in the quality of life for many disabled veterans 
and their families.
    Mr. Chairman, Ranking Member, we appreciate this 
opportunity; and we would be happy to take any questions you 
may have.
    [The prepared statement of Mr. Barker appears on p. 29.]
    Mr. Stutzman. Thank you very much.
    At this time, we will take a short recess while votes are 
taken; and we will resume as quickly as possible once we are 
back here.
    To the Connolly family, I apologize for the break, but you 
understand, I am sure. So we are looking forward to your 
testimony as well. We will be back as quickly as possible. So 
thank you again.
    We have two votes, so it shouldn't take us very long. Thank 
you.
    [Recess.]
    Mr. Stutzman. We will continue our Committee meeting here.
    I am going to ask for unanimous consent to include letters 
from the Military Officers Association and the National 
Association of Veterans Programs Administrators to the record 
as well. Without objection. Thank you.
    [The letters appear on p. 37.]
    Mr. Stutzman. At this time, we will continue with 
testimony. I appreciate your patience, and we will continue 
with Mr. Madden.
    Mr. Madden, you have 5 minutes to testify.

                 STATEMENT OF ROBERT W. MADDEN

    Mr. Madden. Thank you, Chairman Stutzman and Ranking Member 
Braley, for allowing the American Legion the opportunity to 
present our views on the proposed legislation.
    We have seen massive changes made to the education benefits 
that servicemembers and veterans receive. Congress took the 
initiative in 2007 to work towards a bill that would properly 
address the economic needs of our servicemembers and provide 
them with an educational benefit that properly addresses their 
commitment and service to this great Nation.
    As a result of the Post-9/11 GI Bill, there were a few 
unintended consequences that revealed some parity or equity 
issues resulting in some veterans receiving a grander benefit 
than those who chose an uncommon path of education. The 
original bill did not allow for those pursuing at a non-degree 
grant institution to receive the more robust benefit that those 
who did attend a more traditional path of education. This is 
one of some of the examples that were addressed in 2010.
    Now we are gazing upon a landscape and are again seeing 
unintended consequences that need to be addressed through 
legislative changes. H.R. 1383 seeks to accomplish one of those 
unintended consequences. The American Legion is understanding 
of this group of private school student veterans in certain and 
specific States who will see a change in their benefits.
    There are also additional issues that should and need to be 
addressed when considering this bill. Not only are those who 
attend private schools with the assumption their tuition and 
fees would be covered, but we also need to address the out-of-
State student veterans who are attending public school but will 
now fall under the $17,500 cap and will be called upon to pay 
additional costs out of their pocket to maintain attendance in 
their respective public institutions.
    In addition, the loss of interval pay for all education 
benefits will affect those attending school during short but 
very specific time frames.
    We recommend adding the two changes that I have mentioned 
here today to help better serve a community who has already 
sacrificed so much to preserve our freedoms.
    The American Legion supports H.R. 802 and 1657 and the 
draft legislation that is being focused on today, based on the 
simple measure that they one day continue to provide support, 
provide valuable recognition, and help apply the rule of law.
    Thank you for the opportunity to address the Committee. I 
would be happy to answer any questions that you might have 
today.
    [The prepared statement of Mr. Madden appears on p. 30.]
    Mr. Stutzman. Thank you.
    At this time, I am going to yield to Ranking Member Braley 
for the introduction and recognizing Mr. Connolly.
    Mr. Braley. Thank you, Mr. Chairman.
    I am honored to have a constituent of mine testifying 
today, Andrew Connolly, who served in the 133rd Combat Brigade 
of the Iowa National Guard, also known as part of the Red 
Bulls. Andrew served as part of the longest combat deployment 
of any unit in Iraq with the Iowa National Guard, and he also 
served in Egypt. So we are delighted to have him here and look 
forward to your testimony.

                  STATEMENT OF ANDREW CONNOLLY

    Mr. Connolly. Thank you.
    First off, I would like to thank Chairman Stutzman and 
Ranking Member Braley for holding this important hearing today.
    My name is Andrew Connolly. I am here today to advocate for 
adaptive housing grants for veterans. I currently reside at 
2820 Illinois Avenue in Dubuque, Iowa.
    I served in the United States Army National Guard from 
November 2000, to August 2007. During my time of service, I 
completed two tours. The first tour took place in the Sinai 
Peninsula, Egypt, from May of 2003 to January of 2004. The 
second tour of duty was a combat mission in the Al Anbar 
province in Iraq from October 2005, to August of 2007.
    Our mission in Iraq was convoy security. During the 16 
months I spent in Iraq, my unit transported goods to most of 
the western allied bases in Iraq. Our largest enemy threats 
were the improvised explosive devices, or IEDs.
    I personally encountered many IEDs near my vehicle and 
experienced one direct hit, which took place on March 9, 2007. 
The blast report from the explosive ordnance disposal team 
verified it to be a pressure plate land mine with approximately 
15 pounds of PE4. My team and I suffered minor injuries and 
concussions from the blast.
    After completing my tour in Iraq, I immediately returned to 
work and enrolled in school. I tolerated the wear and tear on 
my body, figuring that the pain and weird feelings would go 
away. After serving in Iraq, my disability ratings varied from 
different parts of my body. My back and knees both bothered me 
quite a bit while in Iraq, which is documented in my medical 
files.
    A little over a year after my return, I noticed numbness in 
my right foot. I thought that I had just tweaked something in 
my back due to the injuries that occurred while overseas. After 
a couple of months having this irritating numbness, I consulted 
with the VA hospital in Iowa City; and they ordered an MRI 
right away.
    Following the MRI, the neurologist suggested that I come in 
for a consultation the next week. It was early February of 
2009, and I was struck with some devastating news. The 
neurology doctor at the VA closed the door behind him, 
proceeded to tell me that I had a slow-growing small mass 
located within my spinal cord, and he was 90 percent sure that 
it was malignant. So a spinal cord biopsy was scheduled for 2 
weeks later. The results came back positive for cancer, and 
treatment options were offered.
    At this time, I had a million things rushing through my 
mind, the first being how long do I have. The next was, how am 
I going to get through this financially? The neurologist 
reported that the tumor was service-connected and most likely 
contributed to the pain and discomfort that I suffered while on 
Active Duty.
    At the time, I owned a top-bottom duplex that was built in 
1890. Fortunately, my family and I occupied the lower unit. 
Unfortunately, it was not handicapped accessible. My condition 
rapidly deteriorated and complicated our family situation.
    My son, Brody, was born on July 31, 2008, with a 
neuromuscular disorder called congenital myasthenic syndrome. 
This disorder affects all of my son's muscles, thus causing 
dependence on a ventilator 24 hours-a-day. He, too, will need 
to be in a wheelchair for the rest of his life.
    I started radiation and followed up with chemotherapy. I am 
still taking chemotherapy and probably will until I can no 
longer tolerate it or I move on. As the year 2009 went on, the 
right side of my body slowly lost feeling. By the time 2010 
came around, my left side began to lose feeling as well. As my 
body began to dwindle from the nipples down, I investigated 
military grants for paralyzed veterans. I came across the 
specially adaptive housing grant and applied for it. I was 
denied the grant because I was still able to walk at that time.
    The doctor's report stated that this type of cancer would 
leave me paralyzed and no cure existed. I was diagnosed with a 
grade 2/3 anaplastic astrocytoma cancer of the spine. This 
still did not qualify me for the grant.
    My leg started to give out on me, and I tripped quite 
often. A wheelchair-bound life was creeping into the picture 
quite rapidly. My frustration with the VA grew immeasurably, 
and I felt trapped, fighting a losing battle. I was 26, 
married, and had a beautiful handicapped child to support.
    My life spiraled downward, and I fit the grant criteria to 
a tee. Ironically, my minimal ability to walk kept it beyond my 
grasp.
    For 7 years, military leaders preached to us, prepare, 
prepare, prepare. This is exactly what I was trying to do. I 
was hoping to get the grant paperwork started early so that 
when the time came and a wheelchair became a permanent part of 
my life, I would be ready. At this time, I was unable to afford 
a proper handicapped accessible house for my family.
    In April of 2010, I called Ray Zirkelbach, who served with 
me in both Egypt and Iraq. Ray, an Iowa House Representative in 
the neighboring county, listened to my story. He, too, thought 
something should be done about this situation. He forwarded the 
e-mail on to Congressman Bruce Braley, who quickly turned 
around my application paperwork.
    Within 2 weeks of contacting Representative Ray Zirkelbach 
and Congressman Bruce Braley, I was approved for the grant, and 
a huge weight lifted off my shoulders. With the grant approved, 
I was able to build a house that would be suitable for my 
family.
    Construction on our new house began on June 21, 2010. At 
the same time, I became wheelchair bound. Life in our duplex 
during the construction of the new house was quite miserable 
but temporarily manageable.
    In August, 2010, I officially became a paraplegic, losing 
all use, function, and feeling below the nipples. At this 
point, the neurologist decided it was time to try to remove as 
much of the tumor and spinal cord as possible in an attempt to 
prolong my life. The surgery itself went perfectly. However, 
the surgeons were not able to remove the entire tumor without 
causing me to become a quadriplegic or having respiratory 
complications.
    With paralysis, I fell deeper and deeper into depression. 
The lists of tasks I was able to do around the duplex grew 
shorter and shorter. I became so reliant on my wife and others 
to help me accomplish simple tasks. Taking a shower, for 
instance, became an hour-long duty that required an extra set 
of hands and an awkward plastic bench that offered terrible 
support. I lost all control of bowel and bladder, which made it 
impossible for me to use the bathroom in my own apartment.
    Since the duplex was built in 1890, all the doorways and 
hallways were narrow and produced a knuckle-rubbing experience 
every time I moved into a different room. Cooking, doing the 
dishes, and even maneuvering around the kitchen became very 
difficult. Life in the duplex was unbearable.
    Today, I am in my new house. Today, I took a shower by 
myself in a 5-by-5 roll-in shower with handicap controls. 
Today, I cooked my own breakfast because I was able to reach 
all of the ingredients. Today, I was able to watch my son, 
Brody, sleeping in his bedroom because I could roll through his 
doorway with my wheelchair.
    Today, I am praying for all soldiers and veterans, that 
they may have the support and dignity they deserve without 
having to jump through hoops or have friends in politics. I am 
where I am today because I had advocates, not because I will 
ultimately die young as a result of serving the country I love. 
Adapted housing grant programs, including the temporary 
residence adaptation program that is specifically extended by 
this legislation, ensure that our brave soldiers get the 
assistance they deserve so that they can live as self-
sufficiently as possible.
    Thank you again for holding this hearing. It is my hope 
that Congress extends the TRA program and continues its support 
for all adaptive housing grant programs to come, and I am open 
to any questions you might have. Thank you.
    [The prepared statement of Mr. Connolly appears on p. 32.]
    Mr. Stutzman. Thank you, Mr. Connolly.
    Thanks to each of you for your testimony.
    I will start the questioning.
    I guess my question to you, Mr. Connolly--I just really 
appreciate your story, and you are an inspiration. And thank 
you again for your service. It is just remarkable. And I am 
sure you have many questions, and I think what you are here 
today and supporting is really just a small token of 
appreciation from our country to you and what you have been 
willing to give. And I cannot say thank you enough. To you and 
your son and to your wife, I wish you the very best.
    But during the time when your disease progressed, needing a 
wheelchair, was there a time when you could walk with the 
assistance of a cane or a similar device? For how long?
    Mr. Connolly. Yes. I started using the cane probably around 
April, just a single one-arm cane. And then I switched to four-
arm canes for a while. And then I started tripping quite a bit 
with those and had to move into the wheelchair almost at the 
same time I started to build the house.
    Mr. Stutzman. How many months was that before you were 
confined to a wheelchair that you were using it about, from 
when you were able to walk without any assistance to the 
wheelchair?
    Mr. Connolly. Well, from diagnosis in 2009, February of 
2009, I was able to walk on my own up until April. And then in 
June I was wheelchair bound from then on.
    Mr. Stutzman. Quite rapidly then. So once you were approved 
for the grant--that seems to be the biggest holdup for you, was 
getting approved. What has your experience been like since you 
have been approved, getting the house built? You have a new 
house for you and your family.
    Mr. Connolly. Yeah. Once Congressman Braley had--once I 
contacted him, everything has gone real smoothly. Our house was 
built fairly quick. Our contractor did a great job. And the 
VA--the support that I have had from the VA has been pretty 
good. But since I have been approved, everything has gone 
pretty darn smooth.
    Mr. Stutzman. What about with your son, Brody? What type of 
assistance and help have you been able to receive? Are there 
programs there? What kind of challenges and also assistance is 
there for you?
    Mr. Connolly. Well, I haven't really worked with the VA for 
our son very much. We also have Medicaid for him, and they deal 
mostly with Brody. But with this grant and the new house, it 
has made life for Brody and us so much easier. We have a 
separate bathroom for him that is handicap accessible, and it 
has helped out quite a bit.
    Mr. Stutzman. The next question--and I am kind of keeping 
track of time in my head, and I don't want to take from the 
other Members' times. So if you could start then. I will just 
finish up here in just a couple of minutes.
    But to the veterans service organizations (VSOs), you had 
mentioned and you had listed problems with the recent GI bill 
fix act from last Congress, including the interval payments and 
the need to grandfather groups of students who would be 
adversely affected by the law. Can you explain why did your 
organizations support the legislation that then created these 
problems in the first place? And I will just let any of you 
address that.
    Mr. Tarantino. Well, first of all, Congressman, we had 
worked very hard with the House of Representatives to create a 
fairly robust bill that worked. It wasn't the bill we got, for 
several reasons. First of all, we had trouble getting the bill 
out of the Committee. The Committee was not choosing to move. 
And, honestly, you don't let the perfect be the enemy of the 
good.
    The bill that came out of the Senate expanded GI benefits 
to 400,000 veterans, 85,000 National Guardsmen the day it was 
signed. These were upgrades that were critically needed by not 
just our members, but by all the veterans using the GI bill. So 
while the bill we got was not the perfect solution, it was the 
solution that we got and that is going to vastly improve the 
lives of veterans and their families come August 1st and that 
is the bottom line.
    What we are looking to now is we are looking for the House 
to take leadership and fix some of the things that were left 
out of the Senate version that ultimately got passed.
    Mr. Madden. The American Legion, as a resolution-based 
organization, we had certain policies that directed what we 
supported and what we did not support. Every policy that was, 
as Mr. Tarantino spoke about earlier, was in the bill that was 
introduced, the Senate--was the bill, but it did address in 
more than one way every resolution that we had affecting 
education. So, ultimately, in the long run, we were going to 
support the bill that additionally provided over 400,000 
servicemembers the opportunity to attend school that were 
previously not allowed to.
    Mr. Stutzman. With that, I will go ahead and close my 
questioning out and turn it over to Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Andrew, I have had the pleasure of having a number of 
constituents testify at hearings in Washington, and I can tell 
you I have never heard more moving testimony than what you 
shared with us, and there was a reason why you could hear a pin 
drop during your testimony. So thank you for making the effort 
to come out and share your story.
    I think one of the important things about these adaptive 
housing grants under the Veterans Administration is what I call 
the multiplier effect, and that is how we get a lot more bang 
for our buck from that initial investment than just the VA 
dollars coming into an individual veteran's life. Could you 
share with us a little bit about your own experience, about how 
the community of Dubuque where you live embraced you and your 
family and made the value of this project worth much more than 
just the simple dollars you received?
    Mr. Connolly. Oh, sure. The support that I have had is just 
unreal. My family, my friends, people that I don't even know 
have all chipped in while building our house. And I just can't 
say enough thank you. My pens have run out of ink to try to 
thank so many people that have helped with building this house.
    And it was in the newspaper and on television, and people 
just want to help other--help the veterans out that are in the 
community once they hear about it. And I know, like with the 
roofing, I had help with roofing and siding. And it is like a 
multiplying effect. Just more people want to help out. It is 
awesome. It is such a great feeling that they are there for us.
    Mr. Braley. It is my understanding that a number of people 
in the building trades in the city of Dubuque just came by to 
donate their time and help out with the construction of the 
home so that the value that you got from that money went a lot 
further than would have otherwise. Is that right?
    Mr. Connolly. That is for sure, yes.
    Mr. Braley. One of the things that I think is so 
significant about your testimony is something that you 
mentioned in your testimony, Mr. Tarantino, and I want to talk 
specifically about your third recommendation, where you said to 
make USERRA violations enforceable and expand USERRA to include 
in-State National Guard deployments.
    Mr. Connolly and the Iowa National Guard served the longest 
combat deployment of any unit in Iraq. It was featured in an 
hour-long 60 Minutes special on Veterans Day. And we have 
changed the emphasis that we place on our Guard and Reserve 
units, bringing them to an almost active-duty rotation. And yet 
there is still some troubling discrepancies between the types 
of benefits afforded to people in the Guard and Reserve, and I 
will just give you an example.
    When Mr. Connolly came back from Iraq, it was brought to my 
attention that many of the members of his unit had their orders 
cut short 1, 2, 3, 4, or 5 days so that they did not qualify 
for an additional $250 a day in GI Bill education assistance 
benefits. And you can imagine how angry I and many other people 
who represented constituents affected by that policy were with 
the U.S. Department of Defense. We got that problem solved and 
found out that tens of thousands of Guard members around the 
country did not even know those benefit had been denied.
    Then we got into a problem with respite leave compensation 
for people serving in an hazardous area for prolonged periods 
of time were being denied up to $250 a day of additional 
compensation.
    So the concern I have for all of you is it is great to have 
policies and statutes that govern how benefits should be 
awarded, but if the Pentagon and the Department of Defense 
aren't respecting the purpose behind those laws, you still have 
a problem. Could you elaborate on why that recommendation is 
important?
    Mr. Tarantino. This is tied to that issue, and I am 
speaking for someone who served as a Reservist back in the 
1990s. It was pretty common for the Army to send you on a 179-
day AT or deployment. Because once you hit 180 days, suddenly 
you get all these veterans' benefits. We always used to laugh 
about that morbidly, because that is just the way it worked.
    I am happy to say that these have gotten better. But there 
has been--especially since our National Guard and Reserve have 
borne a terrible burden throughout this entire conflict over 
the last 10 years. If you are a National Guardsman, you have a 
very specific job; and that job was not designed to be three, 
four rotations into a combat zone within a 10-year period. 
Because when you come back, you still have duty in-State.
    I looked at my own State, California, which tends to burn 
down every year. And we use our National Guard for in-State 
firefighting. This is not a Federal disaster. These are State 
disasters.
    So you are really looking at a situation where you have to 
leave your job to get called up, go and defend your hometown 
from burning down, but your job isn't protected when you come 
back off. And that is really what is the crux of it. There is a 
lot of things that we need to do to tweak USERRA to make it 
more effective, to make it more enforceable.
    But this was one really big, gaping hole that a lot of our 
members are starting to feel pain. They are protected when they 
go overseas. But when they have to do a month-long stint 
fighting a fire or doing flood relief, they are starting to 
find that their jobs aren't protected. And, frankly, that is 
just not right.
    Mr. Braley. I just want to follow up on that. Because when 
Mr. Connolly and his colleagues came back, they immediately 
faced an ice-storm disaster in my district that put a half a 
million people without electricity. Then the worst tornado in 
the United States in 2008, the worst flooding in our State in 
history. And I saw them all over my State, and now there are 
3,500 members of the Iowa National Guard serving in 
Afghanistan. This is a problem I think that we have swept under 
the rug far too long, and that is why I appreciate all of your 
attention to these issues.
    And I yield back.
    Mr. Johnson [presiding]. Thank you. And thank you all for 
being here. Sorry I was late. I had another hearing this 
morning--or this afternoon, rather.
    I am Bill Johnson from Ohio, and I am going to yield myself 
my question time, if that is okay.
    Have you folks thought about H.R. 1657? How can we further 
strengthen the laws to deter fraudulent companies from claiming 
to be service-disabled, veteran-owned businesses and taking 
contract dollars away from those legitimate ones? Do you think 
H.R. 1657 is going to be an adequate deterrent?
    Ms. Roof. I think it is a great start. What I have said 
repeatedly and what AMVETS believes is that you can't come up 
with new laws or strengthen laws until you start enforcing 
them. I hate to be blunt about it, but there are laws in place 
that are not being enforced. And I think H.R. 1657 is a great 
step in a direction of enforcing--not only enforcing current 
penalties but giving them some teeth, for lack of a better 
term.
    Mr. Madden. It is already hard enough for Federal agencies 
to reach that 3 percent goal that they are supposed to do so. 
When you add these individuals who are fraudulently qualified 
as service-disabled, veteran-owned small businesses, you are 
taking away--and we agree with the AMVETS on this, that it is 
just creating teeth, adding more additional penalties, 
debarring them after 30 days. It is a good start.
    Mr. Johnson. But what I hear you saying is that is not 
enough if we are not enforcing, correct?
    Ms. Roof. Yes, sir. I think it could be said that for any 
law, though. Any law is great in the book. But until you 
enforce it, it is just that, in a book.
    Mr. Johnson. Do any of your organizations provide any type 
of an award or public recognition to employers who hire 
veterans? And do you know of any other private-sector awards 
that properly recognize these veteran-friendly employees?
    Mr. Madden. Right now, I think for quite a long time, the 
American Legion has had an award that goes out to small, 
medium, and large businesses that hire and retain veterans. We 
provide it every year to different departments in different 
States that offer suggestions. So we have been giving it for a 
long time.
    I am not sure--I do not know offhand of any other 
organizations or any other magazines that might do it as well.
    Mr. Johnson. Any others?
    Ms. Roof. We currently have a program, Employer of the 
Year. I can get you more information for the record on that. It 
is not my forte. But AMVETS does have a couple of programs like 
that, actually.
    [Ms. Roof subsequently provided the following information:]

                      AMVETS Employer of the Year
          The AMVETS National Employer of the Year Awards recognize 
        outstanding companies who demonstrate the highest commitment to 
        hiring veterans. In light of the high rate of unemployment 
        among veterans, recognition of those employers who, as a 
        standard practice, go out of their way to hire the veteran 
        becomes even more important. There are many firms that utilize 
        veterans' preference, even though they may not be government 
        contractors, and AMVETS wants to make sure we recognize them.
          The employers to receive the awards will be selected from 
        nominations submitted by AMVETS department employment 
        committees. Departments, posts or individuals may make 
        recommendations to their respective employment committees and 
        employers may nominate themselves.

    Mr. Johnson. I have one final question.
    I find it a bit interesting that many of you have listed 
problems--that has already been asked? Okay. I was counseled. 
Asked and answered. That is a good thing. Thank you very much.
    And, with that, I will yield back to the Chairman.
    Mr. Stutzman [presiding]. I think that will be all the 
questions we will take, but I do want to turn it over--yield to 
Mr. Braley just for a couple of closing remarks with this 
panel.
    Mr. Braley. Thanks again for holding this hearing, Mr. 
Chairman.
    I think Ms. Roof's comment was instructive. Because having 
a law is one thing. Enforcing a law is quite a different story. 
And, sadly, you have to have money to enforce laws. The dilemma 
that we face in this climate that we are experiencing is that 
it takes money to enforce the law, and yet it saves money if 
you spend money to enforce the law. And that is the challenge 
we face, is making sure we are funding the enforcement arm of 
these agencies to do their job and make sure that we are not 
promoting behavior that punishes legitimate veteran-owned small 
businesses.
    So, with that, I will yield back.
    Mr. Stutzman. Thank you. This concludes the time of this 
panel. I will excuse you all and thank you again for coming.
    And at this time, we will call for the second panel, 
consisting of Mr. Keith Wilson, Mr. Jan Frye, and Mr. John 
Brizzi from the Department of Veterans Affairs.

  STATEMENT OF KEITH M. WILSON, DIRECTOR, EDUCATION SERVICE, 
 VETERANS BENEFIT ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
AFFAIRS; ACCOMPANIED BY JAN R. FRYE, DEPUTY ASSISTANT SECRETARY 
  FOR ACQUISITIONS AND LOGISTICS, U.S. DEPARTMENT OF VETERANS 
AFFAIRS; AND F. JOHN BRIZZI, DEPUTY ASSISTANT GENERAL COUNSEL, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Wilson. Thank you for the opportunity to be here today 
to provide VA's views on H.R. 802, H.R. 1383, H.R. 1657, and a 
draft bill to authorize the VA to provide specially adapted 
housing assistance to individuals residing temporarily in 
housing owned by a family member.
    Accompanying me today are Mr. Jan Frye, Deputy Assistant 
Secretary for Acquisitions and Logistics, and Mr. F. John 
Brizzi, Deputy Assistant General Counsel.
    H.R. 802 would require VA to establish a VetStar Award 
Program, as well as a process for administering this program, 
which would recognize businesses for their contributions to 
veterans' employment.
    A program of recognition for contributions to veterans' 
employment is a worthwhile means of encouraging businesses to 
continue to employ veterans. Businesses that contribute to 
veterans' employment provide a valuable and meaningful service, 
allowing VA to excel with regards to its mission to help 
veterans become employable and obtain and maintain gainful 
employment. VA supports this bill, and estimates that enactment 
of this bill, as written, would result in no significant costs.
    Mr. Chairman, H.R. 1383, the ``Restoring GI Bill Fairness 
Act of 2011,'' would temporarily preserve higher rates of 
tuition and fees for programs of education at nonpublic 
institutions of higher learning pursued by individuals enrolled 
in VA's Post-9/11 GI Bill as it existed before the enactment of 
Public Law 111-377. Section 2 of this bill would modify the 
amount of educational assistance payable to specific 
individuals to make an exception for those who are enrolled in 
a private institution of higher learning in certain States. 
This exception would apply to an individual entitled to 
educational assistance under the Post-9/11 GI Bill who, on or 
before April 1, was enrolled in a private institution of higher 
learning in a State in which the amount of maximum tuition per 
credit hour is $700, and the combined amount of tuition and 
fees for full-time attendance exceeds $17,500. There are seven 
States which meet this criteria: Arizona, Michigan, New 
Hampshire, New York, Pennsylvania, South Carolina, and Texas.
    VA notes that the bill has no impact on the Post-9/11 Bill 
Yellow Ribbon program. The Yellow Ribbon program continues to 
allow high cost schools to offset those high costs by entering 
into agreements with VA to fully cover tuition and fee costs 
exceeding $17,500. Depending on a school's level of 
participation, Yellow Ribbon agreements will continue to cover 
all tuition and fee costs in excess of $17,500.
    VA has concerns with the proposed legislation as written, 
to include the timeline for implementing this legislation, 
which are described fully in my written testimony. VA has had 
constructive discussions with the Subcommittee staff regarding 
these issues, and will be pleased to continue to be available 
to work with the Committee to address these concerns.
    VA is aggressively working on the long-term solution needed 
to process GI Bill claims. VA plans to implement changes for 
the Post-9/11 GI Bill as mandated by Public Law 111-377 across 
three phases. The first release deployed on March 5. Future 
releases are scheduled for June 6 of this year and October 17 
of this year. The enactment of H.R. 1383, as introduced, would 
severely hamper VA's long-term solution deployment efforts. The 
changes made by this legislation would lead to very complicated 
processing scenarios. Additionally, since the amount of 
educational assistance would be based on the greater of the 
maximum tuition credit hour payments or $17,500, VA would have 
to apply a blended set of rules for each claim that falls under 
these provisions.
    This proposed legislation would have a negative impact on 
service delivery for those students using benefits this fall. 
VA claims processors would have to thoroughly examine each 
claim manually to determine if it meets the provisions, which 
would result in labor-intensive manual processing. This would 
lead to a significant increase in average processing time for 
all claims during the critical fall enrollment period.
    H.R. 1657 would revise title 38 to mandate a minimum 5-year 
debarment for VA contracting for any business, including the 
principals of the business, determined by the Secretary to have 
misrepresented its status as a veteran-owned or service-
disabled veteran-owned small business. Further, the bill would 
require VA to commence debarment action within 30 days of 
determination that the representation had occurred, and to 
complete the action within 90 days.
    VA shares the Subcommittee's focus on aggressively 
protecting the government from disreputable businesses in order 
that procurement dollars set aside reach the intended 
recipients. VA has taken steps to protect the integrity of our 
set-aside process as described in my written testimony. While 
we support the general intent of the legislation, VA cannot 
support H.R. 1657 in its present form.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. I would be happy to 
answer any questions you or other Members of the Subcommittee 
may have.
    [The prepared statement of Mr. Wilson appears on p. 33.]
    Mr. Stutzman. Thank you, Mr. Wilson. And thanks for being 
here on behalf of the VA. I do have a couple of questions.
    You stated several concerns with the grandfather bill. 
Chairman Miller has made fixing the provisions in last 
December's fix bill, affecting tuition and fees at private 
institutions, a high priority. House Resolution 1383 does not 
mandate a method, such as within the new automated system, just 
an outcome. So the question becomes how does it happen? How can 
you make it happen?
    Mr. Wilson. As mentioned in my testimony, Mr. Chairman, we 
have worked very aggressively with the Committee staff, and we 
do appreciate their involvement in this. They are fully aware 
of the work that we put into developing a payment system. The 
stage that we are at in development of that payment system and 
the time allowed to implement the changes are inconsistent.
    Basically, what that means is we see no way that we can 
change our development to allow for these provisions in time to 
not negatively impact a broader scope of individuals during the 
fall enrollment. There is simply a lot of work that we continue 
to need to do before we begin processing fall enrollments at 
the beginning of June. Since we are unable to modify the 
development cycle in time that way, the only method for us to 
be paying those benefits is what I would refer to as the stubby 
pencil method, manual processing. We are very concerned about 
anything that would require us to manually process claims 
because of the experience we have had previously with initial 
implementation of this program, and being required to do a lot 
of manual work to pay benefits. We are very concerned about 
benefits being paid on time.
    Mr. Stutzman. Do you have any idea what that number might 
be, what you could anticipate as far as enrollees applying for 
the program?
    Mr. Wilson. Nationwide we are providing education benefits 
to about 800,000 people in all of our education programs. We 
haven't fully finished our costing on this piece of 
legislation. The number that we do have, though, is a maximum 
of about 30,000 people in the seven States would be impacted by 
the cap of $17,500. So 30,000 of the 800,000 or so that we 
provide benefits to.
    Mr. Stutzman. Okay. Thank you. I wanted to address your 
point about there being a difference between, as you call it, 
an innocent mistake and outright willful violation of the law 
regarding service-disabled veteran ownership and control. And 
if you could provide some suggestions in that regard, I would 
be happy to consider them. But there appears to be no real 
progress on firms that have been rejected by either the U.S. 
Government Accountability Office well over a year ago and firms 
identified by the VA as not meeting the statutory standard of 
ownership and control.
    How long do you think it is appropriate to take debarment 
action against a firm that has been found to willfully 
misrepresent its status?
    Mr. Wilson. Mr. Chairman, I would like to ask Mr. Frye to 
respond to that question, please.
    Mr. Stutzman. Okay. Yes, sir. Mr. Frye.
    Mr. Frye. Thank you, Mr. Chairman, for that question. I 
would like to state for the record that we have taken action 
against a number of firms who have misrepresented themselves 
and mischaracterized themselves as veteran-owned service-
disabled or veteran-owned small businesses. To date, we have 
debarred three firms and five individuals. We have five firms 
who are referrals in the queue. And we have one firm and one 
individual that have been proposed for debarment. And I would 
characterize this number as large. I have been in the VA for 
5\1/2\ years in my role as a senior procurement executive, and 
I can tell you that debarments outside of Public Law 109-461 
have been minuscule. I have not done, I think, more than three 
debarments outside of this public law. So we have been very 
actively engaged in debarring those firms who have 
misrepresented themselves.
    Mr. Stutzman. What is a typical debarment? How long of a 
time are they not able to do contracting work?
    Mr. Frye. Well, I can give you an example. My staff told me 
that it took 105 days, workdays, to debar one firm. So that is 
an example of how long that it sometimes takes. We do give them 
a chance to represent themselves. We give them a chance to have 
attorneys represent them, to present their case, and take all 
factors in account before we debar them.
    Mr. Stutzman. Once they are debarred, though, how long were 
they debarred from doing any contract work?
    Mr. Frye. In the case of--let me see here, we imposed a 5-
year period on two firms and four individuals. So they got the 
maximum 5-year period. We imposed a 6-month debarment period on 
one firm and one individual.
    Mr. Stutzman. Okay. People do things like this, go set up a 
different firm, and continue work a different way. Are we 
following through and making sure that we are not doing 
business with those folks?
    Mr. Frye. Yes, Mr. Chairman, that is exactly why we debar 
the individuals as well as the firm. We want to make sure that 
the individual doesn't pull up stakes, roll the tent up, move 
it someplace else, and start another firm under another 
business name.
    Mr. Stutzman. Okay. Because I just think if somebody does 
something like this it is just a despicable act. To take 
advantage of the situation, people like that should not be in 
business, frankly. I appreciate what you are doing, but I think 
that really this is important, that especially in times like 
this, when we are asking more folks to be competing with one 
another in the private sector, that people are taking advantage 
especially of our veterans' circumstances and the situation 
that they are in.
    With that, I will turn to Mr. Braley for his questions.
    Mr. Braley. Thank you, Mr. Chairman. Mr. Frye, I want to 
follow up with you on that point. Is it your opinion that H.R. 
1657 is a solution in search of a problem, or is there a 
widespread problem that the current solutions are not properly 
addressing?
    Mr. Frye. I wouldn't characterize it the way you have, Mr. 
Braley. What I would say is that the VA's authority is limited 
to VA contracts. Right now we have no authority to debar firms 
except those who fall under Public Law 109-461. That is the way 
I would characterize it. So if someone violates the rules 
outside the VA, we don't have the authority to move in and 
debar them from government contracts elsewhere.
    Mr. Braley. So for example, if a veteran-owned business 
working under the jurisdiction of the U.S. Small Business 
Administration (SBA) and its programs were to participate in 
conduct that would be similar to what we are talking about 
here, you would not have a remedy to pursue that?
    Mr. Frye. That is correct, sir.
    Mr. Braley. Have you had conversations with people at SBA 
about the common interest you have in eliminating this practice 
and what type of joint enforcement efforts could be employed?
    Mr. Frye. I don't believe we have had any in-depth 
conversations. We talked about it, but no in-depth 
conversations that I know of.
    Mr. Braley. All right. Thank you. Mr. Wilson, in dealing 
with the issues we were talking about on H.R. 1383, is it your 
testimony that this is a timing problem or an implementation 
problem in terms of the proposal as it exists now? In other 
words, is this something if it wasn't for the demands of the 
rapidly approaching fall academic year that could be addressed 
within the confines of the legislation?
    Mr. Wilson. Timing is the issue. We have created a very 
robust tool, not fully deployed, but we are processing all of 
the claims in the system right now that does allow us 
flexibility. But if the calendar doesn't cooperate, there is 
not much we can do. The challenge we have right now is timing. 
We have completed the development cycle for what we need to 
implement for Public Law 111-377, that it impacts the fall 
enrollment on August 1. We are in user acceptance testing for 
that now. We deployed that on June 7. We begin processing fall 
enrollments on June 7. We do that so that there is not a 
backlog come August, September. Being able to squeeze any more 
development work in between now and then is just simply not 
possible. There are just not enough hours in the day to do it.
    Mr. Braley. As I listened to your testimony, I got the 
impression that your primary concern was the unintended 
consequences that a well-intended bill might have the actual 
impact of denying well-deserving benefits that they should be 
getting simply because of the challenges of addressing the 
implementation. Is that correct?
    Mr. Wilson. I think that is a fair characterization. 
Impacting our ability to pay benefits timely is a very major 
concern. And most of our students are completely dependent on 
their monthly check from VA to stay in school. If they are not 
paid timely, they can't stay in school.
    Mr. Braley. You also talked in your testimony about the 
issue of a blended set of rules. Can you elaborate on the 
problem of applying a blended set of rules?
    Mr. Wilson. The blended set of rules, if the bill is 
enacted the way it is with the timeline, would require our 
claims examiners to manually look at these calculations. In 
other words, they would be looking at computer screens, and 
they would be making manual determinations on what would 
actually be paid. The calculations that exist in the system 
right now would no longer apply to the students of private 
schools in those seven States. So they would basically have to 
create something where they are actually doing math, you know, 
stubby pencil math to figure out whether the amount of tuition 
and fees paid would be something less than the $17,500, 
something more than the $17,500, and then factoring in the 
Yellow Ribbon payments if there is a Yellow Ribbon school at 
all as well. So there are several things that they would have 
to apply their gray matter to do. Our folks are very smart, 
they can do that, but it takes time. And that is the challenge 
is the time it would be taking us to do that during the fall 
semester, when we will have hundreds of thousands of people who 
need to be paid timely.
    Mr. Braley. Thank you. I see my time has expired. I yield 
back.
    Mr. Stutzman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Wilson, you have 
actually enlightened me a little bit, because I have had some 
concerns about the claims processing for quite some time. In 
your testimony, you indicate that you are opposed to H.R. 1383 
because of the effect that it would have on processing times 
and the long-term IT solution. What do you mean by the long-
term IT solution?
    Mr. Wilson. When the Post-9/11 GI Bill was originally 
enacted in 2008, signed into law in June 2008, VA had 13 months 
to set up a payment system. The payment tools and processing 
tools that we had in place at the time were structured 
fundamentally differently than the variables we had to account 
for in the Post-9/11 GI Bill. Basically speaking, Montgomery GI 
Bill and the other programs paid a single payment to the 
student based on a flat rate. The Post-9/11 GI Bill has several 
factors that vary depending upon the individual's situation. So 
we are paying a total benefit amount that is unique to each 
individual. We didn't have a payment system to do that. What we 
set up was a two-track effort, the first track being do the 
minimum that we have to so that we can meet the initial 
timeline in 13 months and begin paying. We went very heavy on 
additional staff to support that model. But also what we 
developed at the same time was a completely new automated 
payment and processing tool so that we could continue to pay 
people timely without a heavy reliance on individuals. So we 
have deployed four phases of that long-term payment system. The 
completion of that long-term payment system, though, was put on 
hold so that we can change it to calculate the new payments 
that are required under Public Law 111-377.
    Mr. Johnson. One of the concerns that I have had through 
our different Committee, Oversight and Investigations, is 
asking for a view of the architecture of VA's IT systems. You 
know, correct me if I am wrong, but your job, the VA's job is 
to care for our veterans. Would it be an accurate statement to 
say that saying our IT systems are inadequate to allow us to do 
that and to respond quickly, do you find that an acceptable 
answer?
    Mr. Wilson. I would hesitate to provide a response as 
broadly as the manner in which your question was put to me. 
What I can tell you is that for the Post-9/11 GI Bill we did 
not have adequate tools. Now, what I will also say is that the 
relationship we, the business providers in the Veterans 
Benefits Administration and elsewhere in VA, specifically the 
information technology organization have done to stand up this 
new architecture that we have, has been phenomenal. We have 
used an agile development methodology. We went from absolutely 
nothing to a fully deployed system within about 18 months. And 
it is a system that works. It is a system that provides the 
payment tools that we need. It is not completely done because 
we have had to change it to support the new legislation. But 
our users like it. It is a 21st Century tool. And I do know 
that our IT environment is using the lessons learned from 
chapter 33 to apply to the other developments that are 
underway.
    Mr. Johnson. But my background as a chief information 
officer in corporate America, and 30 years in IT, agility means 
you are putting in a system that is easily adaptable, easily 
modifiable. But what you are telling me here is that it is not.
    Mr. Wilson. I believe in fact it is. What I would say is 
that regardless of how agile you set up a system, and the 
system that we are setting up for the Post-9/11 GI Bill, which 
again is not completely done but will be, is 21st century 
technology. It is leading-edge technology. But regardless of 
how agile that is, if we are not given the calendar time to be 
able to modify it without a significant level of risk, we are 
going to have an abundance of concern. The time frame that we 
are dealing with here leads us to believe that we are on the 
path of potentially impacting the fall enrollment negatively. 
And that is a risk we are not prepared to accept. It is a 
challenge.
    Mr. Johnson. I am sorry, Mr. Wilson, for cutting you off. I 
am out of time. Agility in the IT industry means the ability to 
quickly change. So you still haven't clarified for me. You keep 
saying that regardless of how agile it is, without the 
requisite amount of time to change it to incorporate these new 
rules, we are still behind the power curve. If that system were 
truly 21st century technology, with agility built in, you 
wouldn't be having these problems, and the veterans throughout 
America and all the veterans organizations would not be 
screaming about the processing backlog.
    Mr. Chairman, I yield back.
    Mr. Stutzman. Thank you. I want to make just a couple of 
comments and ask a couple of other questions. If the gentlemen 
have any other further questions, we will probably be out of 
here in just a couple of minutes. But I agree with what Mr. 
Johnson was just saying. This can't be that difficult. How many 
more employees did the VA hire to implement the new GI Bill?
    Mr. Wilson. About 1,100.
    Mr. Stutzman. One thousand, one hundred. What are they 
doing now?
    Mr. Wilson. They are processing claims right now.
    Mr. Stutzman. I mean they have been doing this for some 
time, right?
    Mr. Wilson. Yes, they have.
    Mr. Stutzman. So is there any way that they could--it seems 
like we have a workforce there that could adapt and adjust 
here.
    Mr. Wilson. And that is what we will be using. Our original 
plan was to move from a very heavily human-based process into a 
more automated process. We are continuing to move in that 
direction. But because of the new changes under P.L. 111-377, 
we need to keep those people on board until we fully deploy. 
The challenge is we have never had the opportunity to fully 
deploy the system yet, even though we have had four releases, 
we have moved mountains, and accomplished a lot in 18 months. 
It was a huge undertaking. And I believe we have done a very 
good job at meeting that undertaking. We do not have a claims 
backlog in the education area, despite what was mentioned 
earlier. We have very sound processing times. Students are 
being served. And I want to make sure that that is clear. And 
we want to be able to continue to provide that level of 
service.
    Mr. Stutzman. Right. Absolutely. I agree and applaud that 
is being done. I want to go back to the Small Business 
Enforcement Act. Once a business or individual has been put on 
the debarment list, are they put on the excluded parties list?
    Mr. Frye. Yes, Mr. Chairman, they are put on the excluded 
parties list once they are debarred.
    Mr. Stutzman. Okay. So they are not showing up anywhere 
else. We want to make sure they are not doing business with the 
government. Is that right?
    Mr. Frye. They should not do business with the government. 
If the contracting officers do their job, their job is to look 
at the excluded parties list before they award any contract. 
They should not be doing business with the government.
    Mr. Stutzman. Okay. Very good. All right. Mr. Braley, any 
further questions?
    Mr. Braley. No.
    Mr. Stutzman. Okay. Thank you to the panel. And thank you 
for being here. I am looking forward to working with you on 
this. I know we will be communicating some more. Mr. Braley, 
you have any further comments to make?
    Mr. Braley. No.
    Mr. Stutzman. Mr. Connolly, again thank you very much for 
being here. Your testimony was very powerful, and helps all of 
us. It makes a big difference when people from back home 
experience travel to DC. I know it is not an easy thing to do, 
but we are really glad you are here. And thank you to Mr. 
Wilson, Mr. Frye, and Mr. Brizzi for being here as well.
    So with that we will conclude today's meeting, and we are 
adjourned.
    [Whereupon, at 2:55 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Prepared Statement of Hon. Marlin A. Stutzman, Chairman,
                   Subcommittee Economic Opportunity

    Good afternoon. Today, we will be taking testimony on H.R. 1383 the 
Restoring GI Bill Fairness Act of 2011, sponsored by Chairman Miller 
and myself, H.R. 802 sponsored by Ranking Member Filner, H.R. 1671 
sponsored by Ranking Member Braley, and H.R. 1657, a bill to improve 
VA's enforcement of service disabled veteran-owned small business 
contracting, which I introduced. Our intent is to hold a Subcommittee 
markup this Thursday followed by a full Committee markup on May 12.
    H.R. 1383, the Restoring GI Bill Fairness Act of 2011, is a bill 
that would grandfather veterans attending private schools who were 
adversely affected by the changes to the GI Bill that passed at the end 
of last congress. I am glad that we are able to make this fix to help 
veterans in the seven States that would see their tuition and fees 
payments reduced all without increasing the deficit due to the 
inclusion of an offset. I see by their testimony that VA has some 
objections to the bill and I hope we can work through those concerns.
    H.R. 1657, is a bill I introduced that is designed to debar 
companies who have fraudulently claimed to be a service disabled 
veteran owned small businesses from doing business with VA. For too 
long legitimate SDVOB's have lost contracts to these fraudulent 
companies, and I hope that the prospect of debarment for 5 years will 
be the deterrent we need to stop this despicable practice.
    I would ask all of today's witnesses to summarize your written 
statement within 5 minutes and without objection, each written 
testimony will be made part of the hearing record.
    Before we begin with testimony, I now ask unanimous consent to have 
statements from the Vietnam Veterans of America, the Gold Star Wives, 
and the Paralyzed Veterans of America entered into the record. Hearing 
none, so ordered.
    I now yield to the distinguished Ranking Member from the great 
State of Iowa for any remarks he may have.

                                 <F-dash>

Prepared Statement of Hon. Bruce L. Braley, Ranking Democratic Member, 
                  Subcommittee on Economic Opportunity

    Today's legislative hearing includes four bills before us that 
address some of the urgent needs of our veteran's population. These 
bills: provide education benefits; extend temporary adaptation grants 
for our disabled veterans; recognize small businesses for their 
contribution to employing veterans, and; penalize fraudulent veteran 
owned small businesses.
    Included in today's hearing is H.R. 1671, the Andrew Connolly 
Veterans' Housing Act, which I introduced yesterday. This bill seeks to 
extend the Temporary Residence Adaptation (TRA) grant through December 
2016. The TRA permits the Secretary of Veterans Affairs, to award a 
grant to a service-disabled veteran who is temporarily residing in a 
residence owned by a member of the veteran's family and make 
adaptations necessary to meet the veteran's mobility needs.
    Currently the legislation is set to terminate on December 31, 2011, 
which is why I am extending this to December 31, 2016. This grant is 
important to service-connected veterans who return home with 
devastating injuries. These veterans need a caretaker while they 
rehabilitate, and these caretakers are generally family members. In 
order to provide disabled veterans with the independence they need 
while they recuperate, different types of adaptations need to be made 
to a family's home while the veteran temporarily lives with them.
    Finally, I would like to recognize Andrew Connolly, a disabled 
veteran who has received a specially adaptive housing grant and is here 
to talk about how this grant has impacted his life. Andrew served in 
both Egypt and Iraq as part of the Iowa Army National Guard's 133rd 
Infantry and is visiting us today from my district. I would like to 
thank him for traveling from Iowa to be here today and for his 
continued service by fighting for veteran issues.
    I would like to thank all our panelists and I look forward to 
receiving feedback on the bills before us today.

                                 <F-dash>

                Prepared Statement of Hon. Bill Johnson

    Thank you Mr. Chairman,
    I am pleased for this opportunity to discuss legislation intended 
to advance education and employment opportunities for our Nation's 
veterans. I would also like to thank members of the veterans' service 
organizations and the VA for being here today and sharing your views 
and recommendations on H.R. 1383, H.R. 802, H.R. 1657, and also Ranking 
Member Braley's legislation regarding specially adaptive housing 
assistance.
    As I've stated before, I strongly believe that veterans are the 
segment of society that most deserves our sincere gratitude and 
assistance. It is our responsibility to ensure that veterans returning 
home are made aware of the benefits they are entitled to, and that they 
receive the necessary assistance to ease their transition back to 
civilian life and the workforce.
    It is my hope that veterans take advantage of the educational 
programs and opportunities offered by the VA. The Post-9/11 GI Bill is 
intended to aide veterans in achieving their educational goals by 
assisting with tuition and fees, housing, and books and supplies.
    However, it is also important that changes made to the benefits 
offered to our veterans are not done so in a harmful manner. H.R. 1383, 
introduced by Chairman Miller, would temporarily preserve higher rates 
for tuition and fees for non-public education programs so that 
students, who had previously been guaranteed higher tuition payment 
rates than those currently specified in the Post-9/11 Educational 
Assistance Program, will not face a reduction in tuition and fees paid 
by the VA on their behalf. It is necessary that these students finish 
their degree with the benefits they were entitled to when they began 
their education program.
    Today, we will also discuss H.R. 802, legislation that would 
establish the VetStar Award Program to recognize businesses for their 
contributions to veterans' employment. While this legislation will not 
solve the issue of high rates of veteran unemployment, it is my hope 
that H.R. 802 will encourage more businesses to hire veterans.
    Additionally, H.R. 1657 will ensure that government contracts 
intended for veteran-owned or service-disabled veteran-owned small 
businesses will be awarded correctly. Veterans possess a unique 
perspective that only those who have served our country can offer. It 
is unconscionable for small businesses to falsely claim to be veteran-
owned and take away contracts intended for those who have served and 
sacrificed for our country.
    I welcome this opportunity to further discuss each of these bills 
with my colleagues in addition to the veterans' service organizations 
and VA members who are present.

                                 <F-dash>

 Prepared Statement of Christina M. Roof, National Acting Legislative 
                  Director, American Veterans (AMVETS)

    Chairman Stutzman, Ranking Member Braley and distinguished Members 
of the Subcommittee, on behalf of AMVETS, I would like to extend our 
gratitude for being given the opportunity to share with you our views 
and recommendations regarding H.R. 1383, H.R. 802, H.R. 1657 and 
Ranking Member Braley's piece of legislation regarding Specialty 
Adaptive Housing.
    AMVETS feels privileged in having been a leader, since 1944, in 
helping to preserve the freedoms secured by America's Armed Forces. 
Today our organization prides itself on the continuation of this 
tradition, as well as our undaunted dedication to ensuring that every 
past and present member of the Armed Forces receives all of their due 
entitlements. These individuals, who have devoted their entire lives to 
upholding our values and freedoms, deserve nothing less.
    Given the fact this testimony will be addressing several pieces of 
legislation, I shall be addressing each piece of legislation 
separately, as to make AMVETS testimony clear and concise on the 
individual subject matters of the bills.
    AMVETS supports H.R. 802, to direct the Secretary of Veterans 
Affairs to establish a ``VetStar Award Program.'' AMVETS believes with 
the disproportionately high unemployment of our veteran community 
compared to that of their civilian counterparts, employers who actively 
seek out and employ veterans deserve to be recognized for their 
contributions to our veterans community. Furthermore, the VetStar Award 
Program stands to serve as a motivator for other companies to actively 
seek out and employ veterans. We must take all necessary actions to 
address and immediately rectify the problem of unemployment that is 
plaguing today's veterans. AMVETS believes H.R. 802 is another step in 
the right direction at doing just that. AMVETS again lends our support 
to H.R. 802.
    AMVETS supports H.R. 1383, to temporarily preserve higher rates for 
tuition and fees for programs of education at non-public institutions 
of higher learning pursued by individuals enrolled in the Post-9/11 
Educational Assistance Program of the Department of Veterans Affairs 
before the enactment of the Post-9/11 Veterans Educational Assistance 
Improvements Act of 2010, and for other purposes. AMVETS believes this 
will allow for students currently enrolled in non-public institutions 
of higher learning the opportunity to finish their degree without any 
undue financial burden or stress. While we applaud Chairman Miller for 
introducing this piece of legislation, we feel we would be doing a 
disservice to our membership if we did not bring up our concerns on the 
new system of which veterans will receive their monthly living stipends 
under the new Post-9/11 Educational Assistance Program of the 
Department of Veterans Affairs enacted in late 2010. AMVETS believes 
many veterans utilizing their educational entitlements under the Post-
9/11 GI Bill will be caught off guard and experience undue financial 
hardships during the periods of time between college semesters. While 
AMVETS strongly supports H.R. 1383, we urge the Chairman and this 
Subcommittee to address what AMVETS believes will be a large problem, 
the living stipend distribution for the Post-9/11 Educational 
Assistance Program of the Department of Veterans Affairs, as amended in 
late 2010.
    AMVETS supports H.R. 1657, to amend title 38, United States Code, 
to revise the enforcement penalties for misrepresentation of a business 
concern as a small business concern owned and controlled by veterans or 
as a small business concern owned and controlled by service-disabled 
veterans. AMVETS applauds Congressman Stutzman for writing a bill that 
is long overdue and very much needed, in order to protect Veteran Owned 
Small Businesses (VOSB) and Service Disabled Veteran Owned Small 
Businesses (SDVOSB). AMVETS has long called upon Congress to revise and 
enforce penalties for misrepresentation by a business concern as being 
a VOSB or SDVOSB. AMVETS finds it reprehensible that any individual or 
business entity would knowingly and purposefully take contracts and 
jobs away from veterans, as well as blatantly defraud the Federal 
Government. AMVETS believes H.R. 1657 will not only strengthen, but 
help enforce penalties that have been long in place, yet severely 
underutilized by numerous Federal agencies. If VA and the Federal 
Government are truly dedicated to protecting the integrity of the 
Federal procurement system, as well as the veteran entrepreneurial 
community, AMVETS urges the swift passage of H.R. 1657. Furthermore, 
AMVETS calls upon this Subcommittee to focus a substantial amount of 
their time during the 112th congress to finally closing all of the 
loopholes within the VA procurement system and to pass laws that will 
once and for all rid the Federal procurement system of fraudulent 
businesses unlawfully taking contracts and jobs from veterans. It is 
important to remember that due to the high unemployment rates, veterans 
are turning to entrepreneurship at rates this country has not seen 
since WWII. Given this fact, now more than ever, VOSBs and SDVOSBs must 
have a fair chance in a successful Federal procurement and acquisitions 
system. AMVETS again lends our strong support to H.R. 1657.
    AMVETS supports H.R. TBD, the ``Andrew Connolly Veterans' Housing 
Act.'' This piece of legislation will amend title 38, United States 
Code, to extend the authority of the Secretary of Veterans Affairs to 
provide specially adapted housing assistance to individuals residing 
temporarily in housing owned by a family member. Thousands of disabled 
veterans and their families depend on these funds to sustain their 
quality of life and independence. Given the rate at which our Nation's 
war fighters are returning from our current conflicts, with 
debilitating and life changing injuries, AMVETS would like to see the 
Committee go a step further and look into extending this program past 
2016, as outlined in Section 2102(A) of title 38, United States Code. 
We have an obligation to care for those who return from war in a state 
different from that of which they left for war in. Furthermore, given 
the current state of our Nation's economy many disabled veterans and 
their families are having to turn to the support of family members for 
temporary housing. Again, AMVETS lends our support to Congressman 
Braley's bill, the ``Andrew Connolly Veterans' Housing Act.''
    Chairman Stutzman and distinguished Members of the Subcommittee, 
AMVETS would again like to thank you for inviting us to share with you 
our opinions and recommendations on these very important pieces of 
legislation. This concludes my testimony and I stand ready to answer 
any questions you may have for me.

                                 <F-dash>

Prepared Statement of Tom Tarantino, Senior Legislative Associate, Iraq 
                  and Afghanistan Veterans of America

    Mr. Chairman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's 200,000 Member 
Veterans and supporters, I thank you for inviting me to testify at this 
hearing to share our members' views on these important issues.
    My name is Tom Tarantino and I am the Senior Legislative Associate 
with IAVA. I proudly served 10 years in the Army beginning my career as 
an enlisted Reservist and leaving service as an Active Duty Cavalry 
Officer. Throughout those 10 years, my single most important duty was 
to take care of other soldiers. In the military, they teach us to have 
each other's backs. Although my uniform is now a suit and tie, I am 
proud to work with this Congress to ensure the entire country has the 
backs of America's servicemembers and veterans.

------------------------------------------------------------------------
    Bill #            Bill Name/Subject          Sponsor      Position
------------------------------------------------------------------------
H.R. 802       VetStar Award Program           Filner       Support
------------------------------------------------------------------------
H.R. 1383      Restoring GI Bill Fairness Act  Miller       Support
                of 2011
------------------------------------------------------------------------
S. 1657        Misrepresentation of Service    Stutzman     Support
                Disabled Owned Small Business
------------------------------------------------------------------------
H.R. DRAFT     Andrew Connolly Veterans        Braley       Support
                Housing Act
------------------------------------------------------------------------

H.R. 802--VetStar Award Program
    IAVA conceptually supports the establishment of a program to 
recognize businesses that contribute to veterans' employment. While we 
endorse H.R. 802, however, IAVA has concerns about what this specific 
program will look like, how it plans to recognize such businesses and 
what effect it will have lowering the rising veteran unemployment rate. 
While a VetStar program certainly couldn't hurt, we remain skeptical 
that this is the most effective course of action for Congress to take 
at this stage.
    In 2010, the unemployment rate for new veterans was a staggering 
11.5 percent. Even as the civilian unemployment rate begins to decline, 
we continue to see the new veteran unemployment rate rise month-to-
month in 2011. With less than half a percent of Americans fighting in 
the current wars and only 8 percent of Americans having ever served in 
the military, it is critical that we bridge the widening gap between 
the civilian workforce and our Nation's veterans. IAVA believes that 
more proactive measures need to be taken if we are to turn the tide on 
veteran unemployment.
    Several weeks ago, IAVA brought 28 Iraq and Afghanistan veterans 
from around the country for our annual Storm the Hill campaign to 
discuss solutions for reducing the veteran unemployment rate by 
Veterans Day 2011. Meeting with 117 offices and 57 Members of Congress, 
we proposed the following policies to reverse the growing number of 
unemployed veterans:

    1.  Order a study and report on the differences between military 
certifications, jobs, and education and those for civilian 
counterparts.
    2.  Make the TAP program mandatory and call for a review of the 
program every 3 years.
    3.  Make USERRA violations enforceable, and expand USERRA to 
include in-state National Guard deployments.
    4.  Encourage entrepreneurship by expanding successful Small 
Business programs like the Patriot Express Loan Program and the Veteran 
Entrepreneurship Bootcamp.
    5.  Encourage business to hire veterans by simplifying and enacting 
a robust tax relief package.

    I am proud to report that our suggestions met with almost universal 
support. Many Members of the House, especially those sitting in this 
room, stepped up and are working on legislation that will reduce the 
number of veterans coming home from war to an unemployment check. I 
look forward to testifying at a future legislative hearing on those 
bills, and reporting to IAVA's 90,000 Member Veterans that Congress has 
their back.

H.R. 1383--Restoring GI Bill Fairness Act of 2011
    IAVA proudly supports H.R. 1383. This bill will ensure that a small 
minority of veterans who, due to poorly constructed and confusing 
tuition and fee regulations, would have had their benefits reduced as a 
result of the Post-9/11 GI Bill's expansion to 400,000 more veterans 
will be able to finish College.
    The House of Representatives wisely included this provision in 
their version of the Post-9/11 Veterans Educational Assistance 
Improvements Act of 2010. The provision, however, was excluded from the 
final version that the President ultimately signed into law. IAVA 
fought hard to ensure that this small minority of student veterans 
would not be negatively impacted by the improvements and expansion of 
the Post-9/11 GI Bill. On behalf of our members and those student 
veterans, I would like to thank this committee for their commitment to 
ensure that these student veterans are not left behind.

H.R. 1657-Misrepresentation of Service Disabled Owned Small Business
    IAVA supports H.R. 1657, strengthening the penalties that small 
businesses may incur if they misrepresent themselves as veteran-owned 
or service disabled veteran-owned small businesses when seeking 
government contracts.
    Promoting veteran entrepreneurship is key to fighting the growing 
tide of veteran unemployment. Small businesses that falsely claim to be 
veteran-owned when applying for government contracts harm veterans who 
provide essential services and contracts to the Federal Government. 
This bill provides clarity on the penalties that may be levied against 
those businesses if they take contracts away from veteran 
entrepreneurs.

Draft Legislation--Andrew Connelly Veterans' Housing Act
    IAVA proudly supports this draft legislation that would extend the 
authority of the Secretary of Veterans Affairs to provide adaptive 
housing benefits to veterans who are recovering from injuries at the 
home of a caregiver through 2016.
    For the thousands of veterans returning home from Iraq and 
Afghanistan with severe injuries, the recovery process is often long 
and arduous. Many of them require constant care from a family caregiver 
for years after they leave service. During this time, they frequently 
reside in a home that is not their own and not a permanent residence 
where they may live on their own after recovery. Adaptations, like 
ramps and elevators, must often be made to their permanent home and 
that of their caregiver while they are recovering from their injuries. 
While the VA does provide grants for adaptive housing, the benefit is 
largely based on the assumption that wounded warriors are living in 
their permanent home. Section 2102A of Title 38 allows the VA to issue 
a separate grant to adapt the temporary homes of recovering veterans; 
however, it is set to expire at the end of this year. By extending this 
program to 2016, Congress can show their strong support for those 
veterans who have made the most extreme sacrifices for our freedom.

Conclusion
    I would like to thank this committee for continuing to support Iraq 
and Afghanistan veterans and their families. By ensuring that these 
bills are swiftly made law, we will continue to send a signal to 
veterans of all generations that Congress and the veterans' community 
has their back. Thank you for your time and attention.

                                 <F-dash>

   Prepared Statement of Shane Barker, Senior Legislative Associate 
 National Legislative Service, Veterans of Foreign Wars of the United 
                                 States

    Mr. CHAIRMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this committee for the opportunity to present its views on these 
bills.
H.R. 802, to direct VA to establish a ``VetStar'' Award program.
    The VFW applauds the idea behind H.R. 802, which would recognize 
businesses for their contributions to veterans' employment, but 
believes that funding to establish criteria and to promote this type of 
program would also be needed. In establishing a ``VetStar'' award, 
outreach would have to be increased within the private sector to 
encourage employment opportunities for veterans, something that the 
Department of Labor's Veterans Employment and Training Service (VETS) 
would be better suited to provide. Also, VETS, under its array of 
programs, has access to private and public sector employment data, 
which would allow them to verify and acknowledge companies that take 
the initiative in employing and promoting veterans.
H.R. 1383, The Restoring GI Bill Fairness Act of 2011
    The VFW greatly appreciates Chairman Miller's initiative in 
introducing this legislation. It addresses what is perhaps the most 
harmful deficiency with the current Post -9/11 GI Bill-that is, the 
lack of a ``hold harmless'' provision to ensure that students are not 
saddled with debt or out-of-pocket expenses as a result of changes in 
tuition payment rates set to take effect this August.
    Over the past 2 years, many students chose a particular degree 
program with the expectation that the Yellow Ribbon Program they began 
with would still be there when they completed their degree. Changes 
made to the Post-9/11 GI Bill last year, positive as they were, made 
significant changes specific to the Yellow Ribbon Program without 
protecting current students from the impact. Many could find themselves 
making the choice between transferring schools or paying hefty tuition 
bills if they choose to remain. H.R. 1383 would preclude changes made 
to the Yellow Ribbon Program for students who were already working on 
their degrees. This is good legislation and the VFW strongly supports 
it.

H.R. 1657, to amend title 38, United States Code, to revise the 
        enforcement penalties for misrepresentation of a business 
        concern as a small business concerned owned and controlled by 
        veterans or as a small business concern owned and controlled by 
        service disabled veterans.
    VFW supports H.R. 1657, as it would provide a more robust 
reinforcement of laws for the misrepresentation of small businesses 
owned and controlled by service-disabled veterans. Provisions in the 
bill include harsher penalties and protections for service-disabled and 
veteran owned businesses involved in contracting, as well as increased 
oversight into the process. We also believe that this bill would be a 
step forward in encouraging positive action with regard to veterans' 
preference in contracting.

DRAFT Bill, to amend title 38, United States Code, to extend the 
        authority of VA to provide specially adapted housing assistance 
        to individuals residing temporarily in housing owned by a 
        family member.
    VFW supports the reauthorization of this critical benefit. Through 
VA's adaptive housing grant program, hundreds of our most severely 
injured veterans have been given an opportunity to ease back into 
civilian life while gaining some sense of independence as they 
recuperate under the care of a family member. With the ongoing wars in 
Afghanistan and Iraq, it is important to continue providing a benefit 
that significantly improves the lives of our severely injured veterans. 
By extending the grant program through December 31, 2016, you will 
increase the flexibility of the benefit while making a difference in 
the quality of life for many disabled veterans and their families.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the Members of the Committee may have.

                                 <F-dash>

   Prepared Statement of Robert Madden, Assistant Director, National 
                  Economic Commission, American Legion

                           EXECUTIVE SUMMARY

    H.R. 1383: The American Legion understands the unintended 
consequences of the passage of the Post-9/11 Fix-it Bill in 2010 and 
the need to address those in legislative language during the 112th 
Congress. H.R. 1383 accomplishes part of what the American Legion sees 
that needs to be remedied yet it does include addressing the role of 
the State Approving Agencies, interval pay and addition of out-of-state 
tuition for public school students.
    H.R. 802: The American Legion supports this legislation. The bill 
recognizes those companies that hire and retain veterans. It serves as 
an incentive to promote veterans' employment and provides awareness for 
those who have fought so bravely for this country.
    H.R. 1657: The American Legion supports this legislation. The 
ability of Service Disabled Veteran Owned Small Businesses (SDVOSB) to 
gain Federal contracts is distracted by fraud and abuse by those who 
have decided not to follow the rules. SDVOSB owners have sacrificed for 
their country and are provided with a gateway into the Federal 
contracting world. Those who choose to swindle the system should be 
appropriately disqualified and punished, without creating more of a 
bureaucratic process for legitimate service disabled veterans who own 
businesses.
    Draft Legislation: The American Legion supports this legislation. 
Adaptive housing assistance is vitally important in light of the 
continuing numbers of disabled servicemembers returning from combat 
zones as the United States engages in action on multiple fronts 
overseas. This aid cannot be allowed to sunset, and therefore the 
extension to this aid is needed and supported by The Legion.
    Thank you for the opportunity to submit these opinions of the 
American Legion on these issues.
                               __________
    Mr. Chairman, Ranking Member Braley, and Members of the 
Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on the several pieces of legislation being considered by the 
Subcommittee today. The American Legion commends the Subcommittee for 
holding a hearing to discuss these very important and timely issues.
    H.R. 1383, Restoring GI Fairness Act of 2011, To temporarily 
preserve higher rates for tuition and fees for programs of education at 
non-public institutions of higher learning pursued by individuals 
enrolled in the Post-9/11 Educational Assistance Program of the 
Department of Veterans Affairs before the enactment of the Post-9/11 
Veterans Educational Assistance Improvements Act of 2010, and for other 
purposes. With the many changes recently made to the Post-9/11 GI Bill 
unintended consequences need to be remedied through the legislative 
process. While this bill helps address one of those issues relating to 
the benefits offered veterans attending private schools, it falls short 
in addressing those other issues. Therefore, The America Legion stands 
firmly committed to ensure every group somewhat affected by the most 
recent changes should be included in all encompassing legislative 
change.
    The American Legion requests Congress add the following provision 
and issues to address all the needs of returning veterans and their 
access to education benefits entitled to them:

    <bullet>  grandfathering in the private schools (as addressed in 
this legislation) but also admitting those who attend out-of-state 
public universities who fall under the same $17,500.00 cap;
    <bullet>  addition of interval pay to include those months when 
veterans are between semesters yet in need of the housing allowance to 
meet their financial responsibilities, and;
    <bullet>  addressing the role of State approving agencies in 
verifying veteran-friendly programs that are specific for the 
demographic.

    The American Legion's views are established in a consensus that all 
veterans are entitled to certain education benefits that will enable 
them to continue moving forward, in terms of their success, and we 
should continue to increase their accessibility and not eliminate any 
portion that might affect their sustainability in attaining a higher 
education.
    H.R. 802, seeks to direct the Secretary of Veterans Affairs to 
establish a VetStar Award Program. The American Legion supports this 
legislation. The American Legion believes in rewarding those small, 
medium and large businesses that contribute to the welfare of veteran 
employment. Veterans hire veterans. When possible, it is imperative 
that businesses that hire and retain veterans should be recognized for 
their continued contribution to the country. The American Legion 
currently provides recognition for businesses that hire veterans and 
would wholeheartedly agree, through the success of our own program, 
this type of behavior should be rewarded. Programs such as the VetStar 
Award shed light into the immense work done by American businesses and 
contribute to other companies realizing their own veteran hiring 
potential.
    H.R. 1657, To amend title 38, United States Code, to revise the 
enforcement penalties for misrepresentation of a business concern as a 
small business concern owned and controlled by veterans or as a small 
business concern owned and controlled by service-disabled veterans. The 
ability of a Service Disabled Veteran Owned Small Business (SDVOSB) to 
gain government contracts is a right, not a privilege. The American 
Legion supports H.R. 1657. The minimal oversight and protection for 
SDVOSB needs to come to an end. Time after time, Federal agencies are 
allowing fraudulent individuals to gain contracts intended for a SDVOSB 
or after the award of a contract discovering the ``SDVOSB company'' was 
not run or owned by a service disabled veteran. In a report submitted 
in 2009, the Government Accountability Office estimated over $100 
million was awarded to ineligible firms who stated they were SDVOSB. 
This information and number is only from a 10-case study. In addition, 
the GAO report cited that ``agencies show that significant control 
weaknesses in the SDVOSB program allow ineligible firms to receive 
millions in SDVOSB contracts. The lack of effective fraud-prevention 
controls by SBA and agencies awarding contracts allowed these 
ineligible firms to receive approximately $100 million of sole-source 
or set-aside SDVOSB contracts over the last several years.''
    This lack of prevention only goes to undermine the significant 
impact that SDVOSB can have in the government contracting realm. We 
must prevent this abuse and fraud, maintaining the ease of 
accessibility for self-certification, and ensure growth and success for 
the legitimate SDVOSB.
    Draft legislation, The American Legion supports this legislation. 
Adaptive housing assistance is vitally important in light of the 
continuing numbers of disabled servicemembers returning from combat 
zones as the United States engages in action on multiple fronts 
overseas. This aid cannot be allowed to sunset, and therefore the 
extension to this aid is a needed and supported by The Legion.
    The American Legion appreciates the opportunity to present this 
statement. Again, thank you Mr. Chairman, Ranking Member Braley, and 
Members of the Subcommittee for allowing the American Legion to present 
its views on these very important issues today.

                                 <F-dash>

           Prepared Statement of Andrew Connolly, Dubuque, IA

    First off, I would like to thank Chairman Stutzman and Ranking 
Member Braley for holding this important hearing today.
    My name is Andrew Connolly. I currently reside at 2820 Illinois 
Avenue in Dubuque, Iowa. I served in the United States Army National 
Guard from November, 2000 to August, 2007. During my time of service I 
completed two tours. The first tour took place in the Sinai Peninsula, 
Egypt from May, 2003 to January, 2004. The second tour of duty was a 
combat mission in the Al Anbar Province, Iraq from October, 2005 to 
August, 2007. Our mission in Iraq was convoy security. During the 16 
months in Iraq, my unit transported goods to most all of the western 
allied bases. Our largest enemy threats were the improvised explosive 
devices (IED's). I personally encountered many IED's near my vehicle, 
and experienced one direct hit, which took place on March 9, 2007. The 
blast report from the explosive ordinance disposal team verified it to 
be a pressure plate land mine with approximately 15 pounds of PE4. My 
team and I suffered minor injuries and concussions from the blast.
    After completing my tour in Iraq, I immediately returned to work 
and enrolled in school. I tolerated wear and tear on the body figuring 
that the pains and weird feelings would go away. After serving in Iraq, 
my disability ratings varied for different parts of my body. My back 
and knees bothered me quite a bit while in Iraq, which is documented in 
my medical files. A little over a year after my return, I noticed 
numbness in my right foot. I thought that I had just tweaked something 
in my back due to the injuries that had occurred while overseas.
    After a couple of months of having this irritating numbness, I 
consulted with the VA Hospital in Iowa City and they ordered an MRI 
right away. Following the MRI the neurologist suggested that I come in 
for a consultation the next week. It was early February, 2009 and I was 
struck with some devastating news. The neurology doctor at the VA 
closed the door behind him and proceeded to tell me that I had a slow 
growing, small mass located within my spinal cord and he was 90 percent 
sure it was malignant. A spinal cord biopsy was scheduled for 2 weeks 
later. The results came back positive for cancer and treatment options 
were offered. At this time I had a million things rushing through my 
mind, the first being, ``How long do I have?'' Next was, ``How am I 
going to get through this financially?'' The neurologist reported that 
the tumor was service-connected, and most likely contributed to the 
pain and discomfort I suffered while on active duty.
    At the time, I owned a top-bottom duplex built in 1890. 
Fortunately, my family and I occupied the lower unit. Unfortunately, it 
was not handicapped-accessible. My condition rapidly deteriorated and 
complicated our family situation. My son Brody was born on July 31, 
2008, with a neuromuscular disorder called congenital myasthenic 
syndrome. This disorder affects all of my son's muscles, thus causing 
dependence on a ventilator 24 hours-a-day. He too will need to be in a 
wheelchair for the rest of his life.
    I started radiation and followed up with chemotherapy. I am still 
taking chemotherapy and probably will until I can no longer tolerate it 
or I move on. As the year 2009 went on, the right side of my body 
slowly lost feeling. By the time 2010 came around, my left side began 
to lose feeling, as well. As my body began to dwindle from the nipples 
down, I investigated military grants for paralyzed veterans. I came 
across the Specially Adaptive Housing grant and applied for it. I was 
denied the grant because I was still able to walk at that time. Doctor 
reports stated that this type of cancer would leave me paralyzed and no 
cure existed. I was diagnosed with grade 2/3 anaplastic astrocytoma 
cancer of the spine. This still did not qualify me for the grant. My 
legs started to give out on me and I tripped quite often. A wheelchair-
bound life was creeping into the picture quite rapidly. My frustration 
with the VA grew immeasurably and I felt trapped, fighting a losing 
battle. I was 26, married, and had a beautiful, handicapped child to 
support. My life spiraled downward. I fit the grant criteria to a 
``T''. Ironically my minimal ability to walk kept it beyond my grasp.
    For 7 years, military leaders preached to us, ``Prepare, prepare, 
prepare!'' That is exactly what I was trying to do. I was hoping to get 
the grant paperwork started early so that when the time came and a 
wheelchair became a permanent part of my life I would be ready. At this 
time I was unable to afford a proper handicapped-accessible house for 
my family. In April of 2010, I called Ray Zirklebach, who served with 
me in both Egypt and Iraq. Ray, an Iowa House Representative in the 
neighboring county, listened to my story. He too thought something 
should be done about this situation. He forwarded my email on to 
Congressman Bruce Braley, who quickly turned around my application 
paperwork. Within 2 weeks of contacting Representative Ray Zirklebach 
and Congressman Bruce Braley, I was approved for the grant and a huge 
weight was lifted from my shoulders.
    With the grant approved, I was able to build a house that would be 
suitable for my family. Construction on our new house began on June 21, 
2010, the same time I became wheelchair-bound. Life in our duplex 
during the construction of the new house was quite miserable, but 
temporarily manageable.
    In August of 2010, I officially became a paraplegic, losing all 
use, function and feeling below the nipples. At this point, the 
neurologist decided it was time to try to remove as much of the tumor 
and spinal cord as possible in an attempt to prolong my life. The 
surgery itself went perfectly, however, the surgeons were not able to 
remove the entire tumor without causing me to become a quadriplegic or 
have respiratory complications. With paralysis, I fell deeper and 
deeper into depression. The list of tasks that I was able to do around 
the duplex grew shorter and shorter.
    I became so reliant on my wife and others to help me accomplish 
simple tasks. Taking a shower, for instance, became an hour-long duty 
that required an extra set of hands and an awkward plastic bench that 
offered terrible support. I lost all control of bowel and bladder, 
which made it impossible for me to use the bathroom in my own 
apartment. Since the duplex was built in 1890, all the doorways and 
hallways were narrow and produced a knuckle rubbing experience every 
time I moved to a different room. Cooking, doing the dishes, and even 
maneuvering around the kitchen became difficult. Life in the duplex was 
unbearable.
    Today I am in my new house. Today I took a shower by myself in a 5, 
x 5, roll in shower with handicapped controls. Today I cooked my own 
breakfast because I could reach all of the ingredients. Today I was 
able to watch my son Brody sleeping in his bedroom because I could roll 
through his doorway with my wheelchair. Today, I am praying for all 
soldiers and veterans, that they may have the support and dignity they 
deserve, without having to jump through hoops, or have a friend in 
politics. I am where I am today because I had advocates, not because I 
will ultimately die young as a result of serving the country I love.
    Thank you again for holding this hearing. It is my hope the 
adaptive housing grants program can be extended so that our brave 
soldiers get the assistance they deserve, so they can live as self-
sufficiently as possible.

                                 <F-dash>

  Prepared Statement of Keith M. Wilson, Director, Education Service, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs

    Good afternoon Mr. Chairman, Ranking Member Braley, and other 
Members of the Subcommittee. Thank you for the opportunity to be here 
today to provide the Department of Veterans Affairs' (VA) views on 
pending legislation affecting VA's programs: H.R. 802, H.R. 1383, H.R. 
1657, and a draft bill to authorize VA to provide specially adapted 
housing assistance to individuals residing temporarily in housing owned 
by a family member. Accompanying me this afternoon are Mr. Jan R. Frye, 
Deputy Assistant Secretary for Acquisitions and Logistics, and Mr. F. 
John Brizzi, Deputy Assistant General Counsel.

                                H.R. 802

    H.R. 802 would require VA to establish a ``VetStar Award Program,'' 
as well as a process for administering that program, which would 
recognize businesses for their contributions to Veterans' employment. 
The program would specify categories and sectors of businesses eligible 
for recognition each year and have objective measures for selecting 
recipients of the award.
    VA supports this bill. A program of recognition for contributions 
to Veterans' employment is a worthwhile means of encouraging businesses 
to continue to employ Veterans. Businesses that contribute to Veterans' 
employment provide a valuable and meaningful service, allowing VA to 
excel with regard to its mission to help Veterans become employable and 
obtain and maintain suitable employment. This service deserves 
appropriate recognition. VA would recommend two categories, ``small 
businesses'' and ``other than small businesses,'' and three sectors, 
``non-profit,'' ``service,'' and ``manufacturing, farming and other,'' 
of recipients eligible to receive awards. A review board would be 
created to review nominations and select recipients. Recipients would 
be recognized with appropriate non-cash award and mementos.
    VA estimates that enactment of this bill as written would result in 
no significant costs. VA estimates nominal costs associated with staff-
days to review and select nominations, advertising, verification of 
winners, and purchasing trophies and plaques.

                               H.R. 1383

    Mr. Chairman, H.R. 1383, the ``Restoring GI Bill Fairness Act of 
2011,'' would temporarily preserve higher rates for tuition and fees 
for programs of education at non-public institutions of higher learning 
pursued by individuals enrolled in VA's Post-9/11 Educational 
Assistance Program as it existed before the enactment of Public Law 
111-377, the Post-9/11 Veterans Educational Assistance Improvements Act 
of 2011. Prior to the passage of Public Law 111-377 on January 4, 2011, 
individuals using benefits under the Post-9/11 GI Bill at a private 
institution of higher learning were paid the lesser amount of the 
established charges (the actual charges for tuition and fees which 
similarly-circumstanced non-veterans enrolled in the program of 
education would be required to pay) or the established in-state maximum 
tuition-and-fee rate at a public institution within that State. With 
the enactment of Public Law 111-377, individuals pursuing a program of 
education at a private institution of higher learning for the academic 
year beginning on August 1, 2011, will be limited to the actual net 
cost for tuition and fees assessed by the institution, not to exceed 
$17,500.
    Section 2 of this bill would modify the amount of educational 
assistance payable to specific individuals to make an exception for 
those who are enrolled in a private institution of higher learning in 
certain States. This exception would apply to an individual entitled to 
educational assistance under the Post-9/11 GI Bill, who, on or before 
April 1, 2011, was enrolled in a private institution of higher learning 
in a State in which the maximum amount of tuition per credit hour in 
the 2010-2011 academic year exceeded $700, and the combined amount of 
tuition and fees for full-time attendance in the program of education 
in such academic year exceeded $17,500. There are 7 States which meet 
these criteria: Arizona, Michigan, New Hampshire, New York, 
Pennsylvania, South Carolina, and Texas. Beginning on August 1, 2011, 
and ending on July 31, 2014, the amount payable under this section 
would be the greater of $17,500, or the established charges payable 
based on the Department of Veterans Affairs Post-9/11 GI Bill 2010-2011 
Tuition and Fee In-State Maximums published October 27, 2010.
    H.R. 1383 does not preserve the higher rate for tuition and fees 
for students pursuing a program of education in a foreign country, 
pursuing at less than half-time rates or while on active duty.
    Section 3 of this bill would freeze the cost-of-living adjustment 
for the monthly housing allowance provided under section 3313(c)(1)(B) 
of title 38, United States Code, at the amount payable on August 1, 
2011, for a 24-month period beginning on that date. At the end of the 
24-month period, the monthly allowance would become the amount then 
authorized by the aforementioned section.
    VA has not yet had an opportunity to estimate the cost impacts of 
this legislation. We will submit our estimate and updated views on the 
bill for the record. However, in addition to any concerns we may have 
if the legislation is found to impose PAYGO costs without an identified 
offset, VA also has concerns with the proposed legislation as written, 
to include the timeline for implementing this legislation, which are 
described in detail below. VA has had constructive discussions with 
Subcommittee staff regarding these issues, and will continue to be 
available to work with to the Committee to address these concerns.
    VA is working aggressively on the Long-Term Solution (LTS) for 
processing Post-9/11 GI Bill claims. As of January 2011, VA and the 
Space and Naval Warfare Systems Center Atlanta (SPAWAR) have developed 
four releases for the LTS system. The enactment of Public Law 111-377, 
which modifies aspects of the Post-9/11 GI Bill, impacted VA's ability 
to deploy previously-planned functionality enhancing the capability of 
the LTS. VA plans to implement changes to the Post-9/11 GI Bill 
mandated by Public Law 111-377 across three releases of the LTS. The 
first release was deployed on March 5, 2011; future releases are 
scheduled for deployment on June 6, 2011, and October 17, 2011.
    The enactment of H.R. 1383 as introduced would severely hamper VA's 
LTS deployment efforts. The changes made by this legislation would lead 
to very complicated processing scenarios in the LTS with changes in 
enrollment and Yellow Ribbon payments. Additionally, since the amount 
of educational assistance would be based on the greater of the maximum 
tuition per credit hour or $17,500, VA would have to apply a blended 
set of rules to each claim that falls under these provisions.
    This proposed legislation would also have a negative impact on 
service delivery for those students using benefits this fall. VA claims 
processors would have to thoroughly examine each claim to determine if 
it meets these provisions, which could result in labor-intensive manual 
processing. This would lead to a significant increase in the average 
number of days to process all education claims.
    Regarding section 3, VA defers to the Congress on identification of 
an appropriate offset necessary to pay for the cost of the temporary 
adjustment for affected Veterans provided by this bill. We note, 
however, that such a freeze in cost-of-living adjustment increases for 
housing allowances could result in some hardship for a broad range of 
students.
    VA has identified several other technical concerns with regard to 
the bill text. For example, it is unclear if an individual must be 
enrolled in the same school and program on or before April 1, 2011, to 
be covered under this legislation. It is also unclear how the 
legislation would apply to an individual who changes programs or 
schools.
    Mr. Chairman, as we noted above, we have already had some 
discussions with Subcommittee staff regarding these concerns and look 
forward to the opportunity to continue those discussions.
    While the amendments made by this legislation would take effect on 
August 1, 2011, VA strongly recommends language be added to allow VA to 
begin making payments in accordance with these provisions no later than 
August 1, 2012, to allow for necessary system changes and reduce the 
impact on existing beneficiaries.
    As stated earlier, VA requests that we be able to provide cost 
estimates for H.R. 1383 for the record at a later date.

                               H.R. 1657

    H.R. 1657 would revise section 8127(g) of title 38, United States 
Code, to mandate a minimum 5-year debarment from VA contracting for any 
business, including the principals of the business, determined by the 
Secretary to have misrepresented its status as a Veteran-owned or 
service-disabled Veteran-owned small business (VOSB/SDVOSB). Further, 
the bill would require VA to commence a debarment action within 30 days 
of determining the misrepresentation has occurred and to complete the 
action within 90 days. VA shares the Subcommittee's focus on 
aggressively protecting the Government from disreputable businesses in 
order that procurement dollars set aside for VOSB/SDVOSBs reach the 
intended recipients. VA has taken steps to protect the integrity of the 
VOSB/SDVOSB set-aside process. VA has added to its acquisition 
regulations the misrepresentation of VOSB/SDVOSB status as a specific 
cause of debarment for a period of up to 5 years. Also, VA has 
instituted a separate and distinct 8127 Debarment Committee to review, 
examine, and refer those who misrepresent themselves to VA's debarring 
official. While we support the general intent of the legislation, VA 
cannot support H.R. 1657 in its present form.
    With regard to the proposed bill, VA questions whether a mandatory 
debarment as proposed would be consistent with the general requirement 
in debarment actions established by the courts to provide appropriate 
due process, notice and an opportunity to be heard, to businesses prior 
to a final determination of debarment. VA also submits that there are 
varying degrees of misrepresentation of VOSB/SDVOSB status. Some may be 
the result of an ``innocent'' mistake whereas others evince a clear 
desire to circumvent the VOSB/SDVOSB status requirements by ``seducer'' 
companies or individuals to steer set-aside dollars to non-status firms 
or persons. VA's believes the debarring official should retain the 
discretion to make these determinations with respect to any debarment, 
including its duration, based on the specific circumstances, including 
remedial measures and corrective actions to prevent the misconduct from 
recurring.
    VA requests the opportunity to work with the Subcommittee to 
address its concern of protecting the VOSB/SDVOSB set-aside program 
while maintaining an equitable debarment process consistent with the 
requirement for an appropriate level of due process, including ways of 
improving VA's debarment authority.
    VA estimates that enactment of this bill as written would result in 
no significant costs since VA already has a standing 8127 Debarment 
Committee.

                           Draft Legislation

    The ``Andrew Connolly Veterans' Housing Act'' would amend section 
2102A of title 38, United States Code, extending, through December 31, 
2016, VA's authority to provide Specially Adapted Housing assistance to 
eligible individuals residing temporarily with family members. Under 
current law, the authority is set to expire on December 31, 2011.
    Although VA supports enactment of this draft legislation, we 
recommend that Congress extend the benefit through the year 2021, in 
accordance with the Administration's FY 2012 Budget.
    VA estimates that the enactment of this proposal would not result 
in additional benefit costs or savings.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be happy to respond to 
questions you or the other Members of the Subcommittee may have 
regarding our views as presented.

                                 <F-dash>

    Statement of Vivianne Cisneros Wersel, Au.D., Chair, Government 
         Relations Committee, Gold Star Wives of America, Inc.

          ``With malice toward none; with charity for all; with 
        firmness in the right, as God gives us to see right, let us 
        strive to finish the work we are in; to bind up the Nation's 
        wounds, to care for him who has borne the battle, his widow and 
        his orphan.''

          . . . President Abraham Lincoln, Second Inaugural Address, 
        March 4, 1865

    Chairman Stutzman, Ranking Member Bradley and members of this 
committee, I am pleased to submit testimony for the record on behalf of 
Gold Star Wives on legislative issue H.R. 1383, pertinent to the 
children of our Nation's military surviving spouses.
    My name is Vivianne Wersel, Chair of the Gold Star Wives Government 
Relations Committee. I am the widow of Lieutenant Colonel Richard 
Wersel, Jr., USMC, who died suddenly on February 4, 2005, 1 week after 
returning from his second tour of duty in Iraq.
    Gold Star Wives of America, Incorporated (GSW), founded in 1945, is 
a Congressionally Chartered organization of surviving spouses of 
military servicemembers who died while serving on active duty or as a 
result of a service-connected cause. GSW's current members are 
surviving spouses of military members who served during World War II, 
the Korean War, the Vietnam War, the Gulf War, the conflicts in both 
Iraq and Afghanistan, and every period in between.
    On January 4, 2011, the Post-9/11 GI Bill Veterans Educational 
Assistance Act, signed into law, reduces educational benefits and is 
scheduled to take effect August 1, 2011. This law would affect 
surviving children using the Gunnery Sergeant John David Fry 
Scholarship. GSW supports H.R. 1383, which would grandfather veterans 
and covered individuals who enrolled in a private institution prior to 
April 1, 2011. This bill (H.R. 1383) also would include exempting 
veterans from the new nationwide tuition limit of $17,500. The Fry 
Scholarship benefit recipients are included as stated ``. . . covered 
individuals entitled to educational benefits under Chapter 33 of Title 
38, Unites States Code . . .''.
    Because of their hard work and academic dedication, some surviving 
children excelled and were accepted and enrolled in a high-cost private 
institution despite the loss of a parent. One of our surviving children 
attends American University (AU) using the Fry Scholarship. She lost 
her Dad in 2002 and last week lost her mother. She enrolled full time 
at AU for the summer; however, it is uncertain how the tuition will be 
paid because of the Post-9/11 GI Bill Veterans Educational Assistance 
Act.
    Surviving children of active duty deaths post-9/11 are eligible for 
the Fry Scholarship, which was designed to mirror the GI Bill. GSW is 
greatly encouraged by the Fry Scholarship program and request this 
program be included in the Yellow Ribbon Education Program. The Yellow 
Ribbon Education Program does not currently apply to children of the 
fallen, yet it would help ensure these children have a brighter future. 
We believe this was an oversight when the Fry Scholarship was created 
with the intention of matching education benefits to mirror the New GI 
Bill.
    As you may recall from our previous testimonies, GSW seeks improved 
education benefits for the surviving spouses and children, to mirror 
the GI Bill. When the servicemember dies, the surviving spouse is left 
to take over the family and run the household. This would require many 
spouses to return to school to learn a trade or finish a degree. For 
many post-9/11 surviving spouses, the servicemember paid into the 
Montgomery GI Bill, with thoughts that someday the benefit would be 
transferable. Unfortunately, after the death, the beneficiary receives 
the paid premiums, rather than the benefit. There is no transferability 
for the surviving spouse after the death.
    We are grateful for Chapter 35, however, it does not keep up with 
the rising costs of housing, tuition, books and fees. In the past, GSW, 
as well as The Military Coalition, brought these inequities before 
Congress. Additionally, the time restrictions to use Chapter 35 should 
be removed, allowing surviving spouses of previous war eras to use 
their lost benefit.
    GSW seeks a voice when there are changes and or concerns with the 
Post-9/11 GI Bill or VA education benefits; we are stakeholders. When 
there is a reduction in a benefit or a delay in the entitlement, the 
burden places a hardship on the surviving spouse as well as the child.
    GSW is grateful to Representatives Miller and Stutzman for 
introducing H.R. 1383 and for their dedication to veterans and 
survivors. In conclusion, each of us faithfully stood by our spouses, 
despite hazardous duty, multiple deployments, and numerous family 
moves. Some surviving spouses never having an opportunity to have a 
family and others forced to serve as both mother and father to their 
children. Surviving spouses often lost longevity in their careers or 
had to give up careers due to multiple family moves. Now we are faced 
with the challenge of numerous inequities for our children.
    Let me remind you of President Lincoln's quote engraved on the VA 
headquarters building, ``. . . to care for him who has borne the 
battle, and his widow and his orphan.''

                                 <F-dash>

                           Military Officers Association of America
                                                    Alexandria, VA.
                                                        May 2, 2011

The Honorable Jeff Miller
Chairman, House Committee on Veterans' Affairs
Cannon House Office Bldg., Rm. 335
U.S. House of Representatives
Washington DC 20515

The Honorable Marlin Stutzman
Chair, Economic Opportunity Subcommittee
Cannon House Office Building
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Miller and Chairman Stutzman:

    On behalf of the 375,000 members of The Military Officers 
Association of America (MOAA), I am writing to express our strong 
support for your bill, H.R. 1383 that would temporarily ``grandfather'' 
higher rates for veterans currently enrolled in non-public colleges and 
universities under the Post-9/11 GI Bill.
    MOAA strongly supported needed improvements to the Post-9/11 GI 
Bill and we were pleased with the final passage of the Post-9/11 
Veterans Educational Assistance Improvements Act of 2010 signed into 
law as P.L. 111-377 on 4 January this year. The original version of 
that legislation included a grandfather provision to ensure that 
students who were already enrolled in private colleges could continue 
their educations under the rate structure in effect on 1 August 2009 as 
adjusted by annual COLAs. Unfortunately, the grandfather provision was 
removed from the bill as it proceeded through the legislative process.
    MOAA believes the underlying intent of your legislation 
contemplates the potential inclusion of out-of-state public college 
students. For some of these currently enrolled veterans, the cost of 
enrollment exceeds the new academic year cap of $17,500 for non-public 
institutions.
    We recognize the enormous budgetary challenges that face all of our 
elected representatives in this most difficult period of rising 
national debt. MOAA recommends a further temporary, internal adjustment 
to program enrollment or housing rates to accommodate currently 
enrolled out-of-state students attending public colleges.
    MOAA respectfully requests a copy of this letter be included in the 
official transcript of the hearing scheduled before the Economic 
Opportunity Subcommittee, House Committee on Veterans Affairs on 3 May 
2011.
    Thank you for your leadership and commitment to the men and women 
who wear and have worn our Nation's uniform.

            Sincerely,

                               VADM Norbert R. Ryan, Jr. USN (Ret.)
                                                          President

                                 <F-dash>

           National Association of Veterans Programs Administrators
                                                     April 27, 2011

The Honorable Jeff Miller
House of Representatives
Washington, DC 20515

Dear Chairman Miller:

    On behalf of the membership of the National Association of Veterans 
Programs Administrators (NAVPA), thank you for introducing H.R. 1383 to 
temporarily preserve higher Post-9/11 GI Bill (Chapter 33) rates for 
tuition and fees for programs of education at non-public institution of 
higher learning. Both your bill as well as Senator Schumer's Senate 
Bill 745 would, in part, correct what we believe to be an unintended 
injustice to veterans, servicemembers and their dependents currently 
enrolled.
    While students attending private schools may in some cases 
experience the greatest reduction in benefits beginning in fall 2011 
under Chapter 33; many non-resident (out-of-state) students attending 
public institutions will also experience substantial decreases in their 
basic Chapter 33 tuition and fee payments.
    A sample of 40 students at four public institutions in three 
different States (Indiana, Kentucky, and Washington) showed reductions 
in benefits ranging from $936 to $3,864 per year. These figures would 
likely vary considerably among all 50 States and among institutions. 
There are definitely students whose benefits will increase based on the 
new rules, but there are many others whose financial situations will be 
negatively impacted as is the case for those attending private schools.
    We respectfully request consideration to grandfather all Chapter 33 
eligible students enrolled on or before April 1, 2011 and, including 
those serving on Active Duty. All eligible students enrolled on or 
before April 1, 2011 should receive the greater of the scheduled 
payment under the 2010-2011 Chapter 33 rules, or the scheduled payment 
under the provisions of P.L. 111-377. We also request that ``Covered 
individuals'' include all students (veterans, servicemembers and those 
dependents to which benefits have been transferred) regardless of the 
State in which they are enrolled.
    We realize this will require VA to calculate payments at both rates 
for the grandfathered period--and to track those students for whom 
grandfathering is appropriate. This effort is reasonable to protect all 
individuals who have made both personal and financial commitments to 
pursue their educational endeavors based on the benefits available and 
promised at the time they applied for admission, were accepted and 
enrolled at Institutions of Higher learning throughout the country.
    Thank you for your support, your service, and for your 
consideration of these recommendations.

Respectfully,





Faith DesLauriers                    Dorothy Gillman
Legislative Director                 President



                                 <F-dash>

               Statement of Paralyzed Veterans of America

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, Paralyzed Veterans of America (PVA), thanks you for the 
opportunity to submit a statement for the record regarding the proposed 
legislation being considered today. PVA appreciates the fact that you 
are addressing these important issues with the intention of improving 
benefits for veterans. We particularly support any focus placed on 
meeting the complex needs of the newest generation of veterans, even as 
we continue to improve services for those who have served in the past.
         H.R. 1383, ``Restoring GI Bill Fairness Act of 2011''
    PVA does not support H.R. 1383 as it is currently introduced. We 
support the concept of H.R. 1383 that will temporarily preserve higher 
rates for tuition and fees for programs of education at non-public 
institutions of higher learning.
    PVA opposes Section 3 of H.R. 1383. This section will limit the 
cost of living increases of the monthly stipends for veterans who rely 
on this funding to support themselves and their families while they 
prepare for a career after serving their country. Even though the rate 
of total inflation has remained low in recent years, we are witnessing 
dramatic increases in transportation costs. Students use their 
automobile for travel to school, work, and other obligations and higher 
fuel costs are now affecting food, heating and other necessities. With 
the price of gasoline increasing each month their monthly stipend must 
be adjusted each year to help these veterans remain in school.

       H.R. 802, legislation to establish a VetStar Award Program

    PVA supports H.R. 802, a bill to establish a VetStar Award Program. 
During this time of high unemployment it is unfortunate that the 
unemployment rate among veterans is several points higher than the 
national average. While the Federal Government has directed its 
agencies to increase the hiring of veterans and those agencies that 
assist veterans to increase their efforts to help veterans enter the 
workforce, veteran's unemployment rate remains unacceptably high. This 
bill, H.R. 802 will help to promote and recognize private sector 
employers that put forth extra effort to employ veterans.

H.R. 1657, legislation to enforce penalties for misrepresentation of a 
               business as a small veteran-owned business
    PVA supports H.R. 802, a bill to enforce penalties for those that 
misrepresent their business when competing for government contracts. 
PVA has been a member of the Veterans' Entrepreneurship Task Force 
(VET-Force) since its creation. This is a coalition of Service Disabled 
Veteran Owned Small Business and Veteran Owned Small Businesses that 
work together to identify and remove barriers that prevent these 
businesses from participating in government contracts. This problem has 
been an ongoing issue with this organization. Misrepresenting a 
business for the purpose of receiving a government contract should be a 
Federal crime. Financial penalties for businesses that perpetrate this 
misrepresentation would discourage businesses from falsifying 
information to the Federal Government. PVA supports this legislation.

                 Andrew Connolly Veterans' Housing Act

    PVA supports this legislation that would extend to December 31, 
2016, the authority of the Secretary of Veterans Affairs to provide 
specially adapted housing assistance to individuals residing 
temporarily in housing owned by a family member. Making a home 
accessible for mobility impaired veterans is an important issue for 
PVA. Extending this program for 5 years will allow more veterans to 
take advantage of this benefit which allows them to stay with their 
families while rehabilitating and adjusting to their new lives. PVA 
strongly supported the legislation to create the temporary housing 
grant when it recently became law. PVA supports the extension of this 
benefit.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
